<html>
<title> - EXAMINING DHS'S MANAGEMENT OF TRUSTED TRAVELER PROGRAMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
        EXAMINING DHS'S MANAGEMENT OF TRUSTED TRAVELER PROGRAMS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2020

                               __________

                           Serial No. 116-84

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                            __________
 
                U.S. GOVERNMENT PUBLISHING OFFICE 
43-957 PDF             WASHINGTON : 2021                                
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Donald M. Payne, Jr., New Jersey     Michael T. McCaul, Texas
Kathleen M. Rice, New York           John Katko, New York
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada                   Jefferson Van Drew, New Jersey
Bonnie Watson Coleman, New Jersey    Mike Garcia, California
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                                Witness

Mr. Robert E. Perez, Deputy Commissioner, U.S. Customs and Border 
  Protection:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10


        EXAMINING DHS'S MANAGEMENT OF TRUSTED TRAVELER PROGRAMS

                              ----------                              


                     Wednesday, September 30, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 310, Cannon House Office Building, and via Webex, Hon. 
Kathleen M. Rice [Chairwoman of the subcommittee] presiding.
    Present: Representatives Rice, Correa, Torres Small, 
Clarke, Higgins, Lesko, and Guest.
    Miss Rice. The Subcommittee on Border Security, 
Facilitation, and Operations will come to order.
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any point.
    Good morning. We are convening today in our continued 
effort to understand why this committee received inaccurate and 
misleading testimony from the DHS regarding its decision to ban 
residents of New York State from Trusted Traveler Programs like 
Global Entry.
    On February 5, Senior DHS Official Chad Wolf wrote to New 
York officials to inform them of the ban without notifying 
Congress and the Members of the New York State delegation who 
sit on this authorizing committee.
    Mr. Wolf cited New York's Green Light law as justification 
for the ban, stating that the law, ``compromises CBP's ability 
to confirm whether an individual applying for a TTP membership 
meets program eligibility requirements.''
    Mr. Wolf then stated, ``Because the act prevents DHS from 
accessing New York DMV records in order to determine whether a 
TTP applicant or re-applicant meets program eligibility 
requirements, New York residents will no longer be eligible to 
enroll or re-enroll in CBP's Trusted Traveler Programs.''
    After that announcement, this committee continued to 
receive inaccurate and misleading testimony that repeated the 
central claims made in Mr. Wolf's letter, that New York State 
was unique in denying this access to DMV records. At a minimum, 
the testimony gave a false impression about both the uniqueness 
of New York State's Green Light law and the supposed 
ramifications of CBP's inability to access New York State's DMV 
information.
    In March, for example, Mr. Wolf told the committee, quote: 
New York law specifically prohibits CBP from going into that 
DMV database. They need information contained there that they 
can only get there to vet Trusted Travelers. They have done 
that above and beyond any other State. There is no other State 
that prohibits that information. So that is specifically why we 
took that action with New York and for that action alone.
    In summary, the committee was led to believe that New York 
was the only State that didn't provide DMV information to CBP 
and that such information was so critical to vetting applicants 
to the Trusted Traveler Programs that, because New York didn't 
provide it, CBP had to ban all New York State residents from 
applying or re-applying for the program.
    While the ban was in place for New York State residents, 
including for residents who already participated in the program 
and who were prescreened and deemed trustful, it had a 
detrimental, chilling effect at our Northern Border. Then all 
of a sudden, over the summer, the ban was lifted, and we 
learned that other U.S. jurisdictions provide the same access 
to their DMV records to CBP as New York did, yet residents of 
these jurisdictions were not banned from participating in the 
Trusted Traveler Programs.
    In fact, today's witness, Mr. Robert Perez, made this clear 
in a supplemental declaration he submitted on the matter to the 
district court in New York. We also learned information that 
raises questions about whether DMV data is actually used to vet 
every Trusted Traveler Program applicant. Unfortunately, we 
learned this information only from the court filings in this 
case on this issue.
    DHS did not proactively reach out to the committee or 
correct the committee's understanding until the committee wrote 
to DHS after reading the filings, and we are here today because 
we still don't have the necessary information from CBP on their 
decision.
    There appears to be only 2 explanations for the inaccurate, 
misleading testimony the committee received from DHS. Either 
senior DHS officials had a shared and profoundly inaccurate 
understanding of how the programs they manage actually work, 
which would be extremely troubling in its own right, or the 
only other option is that senior officials intentionally 
obfuscated key details about the applicant vetting process in 
order to justify a completely political decision to declare all 
New York residents ineligible for participation in the program.
    The President wanted to punish New York for its Green Light 
law, and this was the retribution, plain and simple. In a 
transcribed interview with the committee, Mr. John Wagner, 
CBP's former deputy executive assistant commissioner, informed 
us that he, ``should have been aware that two territories gave 
CBP no DMV information.'' He also said he, ``should have known 
that several States and other jurisdictions did not share 
driver histories.''
    So why didn't he and other senior officials know this? We 
still don't have the answer to that, and DHS has refused to 
cooperate with the committee's investigation. DHS has not 
provided the documents we requested. DHS has not made available 
for transcribed interviews the employees we requested. During 
the course of an entirely voluntary interview with Mr. Wagner, 
DHS's attorneys repeatedly halted straightforward lines of 
questioning, effectively undermining the purpose of interview. 
Today DHS provided only 1 of the 4 witnesses this committee has 
requested.
    We hope that Mr. Perez can tell us which explanation is 
correct, but we will continue our investigation until we know 
for sure.
    Further, given that the Department stated that DMV data is 
so critical to assessing the eligibility of applicants to the 
Trusted Traveler Programs, we would also like to know whether 
the enrollment of applicants from other States or territories 
that provide only some or no DMV data has created risks. 
Similarly, we would like to know exactly what DMV data CBP 
receives regarding applicants from foreign nations, including 
whether that data is reliably accurate.
    Obviously, we also want to know why DHS officials do not 
understand the programs they manage and whether this is 
creating security risks. I, therefore, call on DHS to 
immediately provide all the documents we have requested and to 
provide complete answers to our questions. This information is 
essential for our Nation's security.
    I look forward to hearing Mr. Perez's testimony, and I 
thank him for appearing.
    [The statement of Chairwoman Rice follows:]
                Statement of Chairwoman Kathleen M. Rice
                           September 30, 2020
    We are convening today in our continued effort to understand why 
this committee received inaccurate and misleading testimony from DHS 
regarding its decision to ban residents of New York State from Trusted 
Traveler programs, like Global Entry.
    On February 5, senior DHS official Chad Wolf wrote to New York 
officials to inform them of the ban, without notifying Congress and the 
Members of the New York State delegation who sit on this authorizing 
committee. Mr. Wolf cited New York's Green Light Law as justification 
for the ban, stating that the law ``compromises CBP's ability to 
confirm whether an individual applying for TTP membership meets program 
eligibility requirements.''
    Mr. Wolf then stated, ``Because the Act prevents DHS from accessing 
New York DMV records in order to determine whether a TTP applicant or 
re-applicant meets program eligibility requirements, New York residents 
will no longer be eligible to enroll or re-enroll in CBP's Trusted 
Traveler Programs.''
    After that announcement, this committee continued to receive 
inaccurate and misleading testimony that repeated the central claims 
made in Mr. Wolf's letter--that New York State was unique in denying 
this access to DMV records. At a minimum, the testimony gave a false 
impression about both the uniqueness of New York State's ``Green Light 
Law'', and the supposed ramifications of CBP's inability to access New 
York State DMV information.
    In March, for example, Mr. Wolf told the committee, ``New York law 
specifically prohibits CBP from going into that DMV database. They need 
information contained there that they can only get there to vet trusted 
travelers. They've done that above and beyond any other State, there is 
no other State that prohibits that information so, that['s] 
specifically why we took that action with New York and for that action 
alone.''
    In summary, the committee was led to believe that: (1) New York was 
the only State that didn't provide DMV information to CBP, and (2) such 
information was so critical to vetting applicants to the Trusted 
Traveler program that because New York didn't provide it, CBP had to 
ban all New York State residents from applying or re-applying for the 
program.
    While the ban was in place for New York State residents--including 
for residents who already participated in the program and who were pre-
screened and deemed trustful--it had a detrimental, chilling effect at 
our Northern border. Then all of a sudden, over the summer, the ban was 
lifted, and we learned that other U.S. jurisdictions provide the same 
access to their DMV records to CBP as New York did. Yet residents of 
these jurisdictions were not banned from participating in the Trusted 
Traveler programs. In fact, today's witness, Mr. Robert Perez, made 
this clear in the supplemental declaration he submitted on the matter 
to the District Court.
    We also learned information that raises questions about whether DMV 
data is actually used to vet every Trusted Traveler program applicant. 
Unfortunately, we learned this information ONLY from the court filings 
on this issue. DHS did not proactively reach out to the committee or 
correct the committee's understanding until the committee wrote to DHS, 
after reading the filings. And we're here today because we still don't 
have the necessary information from CBP on their decision.
    There appears to be only 2 explanations for the inaccurate and 
misleading testimony the committee received from DHS. Either senior DHS 
officials had a shared and profoundly inaccurate understanding of how 
the programs they manage actually work, which would be extremely 
troubling in its own right. Or, option No. 2, senior officials 
intentionally obfuscated key details about the applicant vetting 
process in order to justify a completely political decision to declare 
all New York residents ineligible for participation in the program.
    The President wanted to punish New York for its ``Green Light 
Law.'' And this was the retribution. Plain and simple. In a transcribed 
interview with the committee, Mr. John Wagner, CBP's former deputy 
executive assistant commissioner, informed us that he, ``should've been 
aware'' that 2 territories gave CBP no DMV information. He also said 
he, ``should've known'' that several States and other jurisdictions did 
not share driver histories. So why didn't he and other senior officials 
know this? We still don't know. And DHS has refused to cooperate with 
the committee's investigation.
    DHS has not provided the documents we requested. DHS has not made 
available for transcribed interviews the employees we requested.
    During the course of an entirely voluntary interview with Mr. 
Wagner, DHS attorneys repeatedly halted straight-forward lines of 
questioning, effectively undermining the purpose of the interview. And 
today, DHS provided only 1 of the 4 witnesses this committee has 
requested. We hope that Mr. Perez can tell us which explanation is 
correct, but we will continue our investigation until we know for sure.
    Further, given that the Department stated that DMV data is so 
critical to assessing the eligibility of applicants to the Trusted 
Traveler programs, we would also like to know whether the enrollment of 
applicants from other States or territories that provide only some or 
no DMV data has created risks.
    Similarly, we would like to know exactly what DMV data CBP receives 
regarding applicants from foreign nations, including whether that data 
is reliably accurate. Obviously, we also want to know why DHS officials 
do not understand the programs they manage, and whether this is 
creating security risks.
    I therefore call on DHS to immediately provide all of the documents 
we have requested and to provide complete answers to our questions. 
This information is essential for our Nation's security.

    Miss Rice. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Louisiana, Mr. Higgins, 
for an opening statement.
    Mr. Higgins. Thank you, Chairwoman Rice.
    Thank you, Deputy Commissioner Perez, for being here today.
    Madam Chairwoman, I was saddened to hear of the passing of 
CBP Officer Carlo Cayabyab in California. I would like to 
express my condolences to his family and the entire agency.
    Last year, New York State passed legislation referred to as 
the Green Light law. This law has arguably made communities 
throughout the entire country less safe. The law barred New 
York State driver's license and vehicle registration 
information, driving-related criminal history information, 
driver's license and corrections images, among other 
information that is commonly requested by law enforcement, from 
being divulged on residents, from being shared with Customs and 
Border Protection, and Immigration and Customs Enforcement.
    The sponsor of this law said before the State assembly that 
it would only impact investigations on immigration-related 
violations and that criminal investigations would not be 
impacted. However, criminal investigations have indeed been 
impacted by this State's law. The totality of negative 
consequences are much farther reaching.
    All 4 U.S. Attorneys for the State of New York have had 
press releases in February, stating that the Green Light law is 
impacting active criminal investigations across the board. CBP 
and ICE are on the front lines of defending homeland from 
terrorism; transnational crime; dangerous gang members; 
narcotics, including fentanyl; counterfeit products, including 
pharmaceuticals; human trafficking; child exploitation; and 
other very important missions.
    The Green Light law limits the Department's situational 
awareness at border crossings, interior checkpoints, and where 
high volumes of drug and human smuggling interdictions occur. 
Peace officer patrol stops and homeland security 
investigations, including criminal activity on the dark net, 
are all impacted by the Green Light law.
    There are more than 19 million residents of New York State. 
New York State-licensed vehicles and travelers transit borders, 
seaports, and airports across the country. The impact of the 
law is not New York-specific. It affects communities throughout 
the United States. The Green Light law also requires an 
individual to be notified if CBP or ICE request information 
about them outside the scope of the exception. If an ICE 
officer is investigating a human trafficking case involving an 
illegal immigrant who resides in New York State and attempts to 
access related DMV data, the State law requires that individual 
to be tipped off. That is contrary to law enforcement 
procedures across the country and does not help criminal 
investigations.
    The Green Light law wrongfully assumes that State DMV data 
is mainly accessed for civil immigration and violation 
purposes. The reality is that more than 86 percent of 
individuals arrested by ICE in fiscal year 2019 had criminal 
convictions or pending charges.
    The Green Light law furthers the left's agenda to rather 
tie the hands of Federal law enforcement, to ignore some 
Federal immigration laws, and to attack and call for the 
dismantlement of ICE and CBP. Not all of my colleagues across 
the aisle feel this way, but it is part of the National 
narrative and is directed by my Democratic colleagues.
    The fracturing of information shared between Federal, 
State, and local law enforcement is not a good idea. This law 
values the ability of an illegal immigrant to get a driver's 
license over the safety and security of the homeland. The New 
York State legislation knew it had gone too far. They amended 
the original language in April of this year to allow for some 
information to flow to CBP, and I applaud that effort. However, 
what could have been a good-faith effort to come together and 
fix this problem devolved into an escalated attack on law 
enforcement by making it a felony to share DMV information with 
CBP or ICE outside of narrow exceptions. It is an easy mistake 
to make.
    This move is a direct contradiction to the 9/11 Commission 
Report on the importance of information sharing. It 
intentionally poisons the well with Federal, State, and local 
partners on joint task forces to counterterrorism, gang 
violence, and drug trafficking, all seen as the best practice 
to keep violent criminals off the streets.
    Instead of speaking about dangerous precedent the Green 
Light law has set, some of my colleagues seem more concerned 
with taking shots at the administration. In an election year, 
we have seen that from both sides. This committee should be 
objective about our observations and conclusions. It is 
interesting that we would attempt to impact career Department 
of Homeland Security officials just weeks before an election.
    It is undeniable that New York State took unprecedented 
action in blocking CBP and ICE access to DMV information 
currently available to all other Federal, State, and local law 
enforcement. This is unique to New York. It is not 100 percent 
unique complexities of this law that were uncovered as the 
investigation unfolded, but New York is certainly alone in the 
totality of this circumstance.
    Today I would like to hear on the record about how this New 
York State law is still negatively impacting CBP's Homeland 
Security missions. I want case examples on the record about the 
hoops CBP must still jump through to secure the homeland and 
what more needs to be done reverse this well-intended but 
perhaps shortsighted law. I want to know if someone residing in 
the country illegally who receives a New York State-issued 
driver's license can obtain NEXUS status which, in some 
instances, acts in lieu of a passport. I want an update on 
data-sharing agreements made to ensure CBP can fully vet 
Trusted Traveler applicants.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                           September 30, 2020
    Thank you Chairwoman Rice, and thank you Deputy Commissioner Perez 
for being here today.
    Last year, New York State passed legislation, referred to as the 
Green Light Law, that has disturbingly made communities throughout the 
entire country less safe.
    The law barred New York State driver's license and vehicle 
registration information, driving-related criminal history information, 
driver's license and corrections images, among other information on 
residents from being shared with Customs and Border Protection and 
Immigration and Customs Enforcement.
    The sponsor of this law said before the State Assembly that it 
would only impact investigations of immigration-related violations . . 
. and that criminal investigations would not be impacted.
    However, criminal investigations have in fact been impacted by this 
State law and the totality of negative consequences are much farther 
reaching.
    All 4 U.S. attorneys for the State of New York put out a press 
release in February sounding the alarm that the Green Light Law is 
impacting active criminal investigations across the board.
    CBP and ICE are on the front lines of defending the homeland from 
terrorism, transnational crime, dangerous gang members, narcotics 
including fentanyl, counterfeit products including pharmaceuticals, 
human trafficking, child exploitation, among other important missions.
    The Green Light Law limits the Department's situational awareness 
at border crossings, interior checkpoints where high volumes of drug 
and human smuggling interdictions occur, peace officer patrol stops, 
and homeland security investigations including criminal activity on the 
Darknet.
    There are more than 19 million residents of New York State. New 
York State licensed vehicles and travelers transit borders, sea ports, 
and airports across the country. The impact of the law is not New York-
specific, it effects communities throughout the United States.
    The Green Light law also requires an individual to be notified if 
CBP or ICE requests information about them outside the scope of the 
exception.
    If an ICE officer is investigating a human trafficking case 
involving an illegal immigrant who resides in New York State and 
attempts to access related DMV data, State law requires that individual 
to be tipped off. That is shameful.
    The Green Light Law wrongfully assumes that State DMV data is 
mainly accessed for civil immigration violation purposes. The reality 
is more than 86 percent of individuals arrested by ICE in fiscal year 
2019 had criminal convictions or pending charges.
    The Green Light Law furthers the far left's agenda to tie the hands 
of Federal law enforcement, ignore Federal immigration laws, attack and 
call for the dismantlement of ICE and CBP, and fracture information 
sharing between Federal, State, and local law enforcement. This law 
values the ability of an illegal immigrant to get a driver's license 
over the safety and security of the homeland.
    The New York State legislature knew that it went too far. That's 
why they amended the original language in April of this year to allow 
for some information flow to CBP.
    But what could have been a good-faith effort to come together and 
right the original wrong turned into an escalated attack on law 
enforcement by making it a FELONY to share DMV information with CBP or 
ICE outside narrow exceptions.
    This move flies in the face of the 9/11 Commission Report on the 
importance of information sharing. It intentionally poisons the well 
with Federal, State, and local partners on joint task forces to counter 
terrorism, gang violence, and drug trafficking seen as a best practice 
to keep violent criminals off the streets.
    Instead of speaking out about the dangerous precedent the Green 
Light Law has set, my colleagues on the other side of the aisle seem 
more concerned with taking shots at the administration and career DHS 
officials right before the election.
    It is undeniable that New York State took unprecedented action in 
blocking CBP and ICE access to DMV information currently available to 
all other Federal, State, and local law enforcement.
    Today I want to hear on the record about how this New York State 
law is still negatively impacting CBP's homeland security missions.
    I want case examples on the record about the hoops CBP must still 
jump through to secure the homeland, and what more needs to be done to 
reverse this short-sighted law.
    I want to know if someone residing in the country illegally who 
receives a New York State-issued driver's license can obtain NEXUS 
status, which in some instances acts in lieu of a passport.
    I want an update on data-sharing agreements being made to ensure 
CBP can fully vet trusted traveler applicants.
    I yield back.

    Mr. Higgins. I yield back.
    Thank you, Madam Chair.
    Miss Rice. I thank the Ranking Member.
    Members are reminded that the subcommittee will operate 
according to the guidelines laid out by the Chairman and 
Ranking Member in the July 8 colloquy. Member statements may be 
submitted for the record.
    [The statement of Chairman Thompson follows:]
           Prepared Statement of Chairman Bennie G. Thompson
                           September 30, 2020
    The issue that brings us here is our on-going effort to understand 
why we were misled about the Department's decision to exclude New York 
residents from Customs and Border Protection's Trusted Traveler 
programs. DHS's arbitrary and unjustified decision had the potential to 
limit economic activity by increasing wait times at Ports of Entry and 
to create unnecessary hardship for hundreds of thousands of American 
travelers.
    As the Chairwoman noted, DHS's explanation for seeking to punish 
New York residents in this way is now called into serious question. 
While New York's ``Green Light Law'' did limit CBP's access to DMV 
data, other States and territories were providing no or only limited 
DMV data to CBP when New York residents were cut off from Trusted 
Traveler Programs. And yet, no other State or territory was targeted as 
New York was. In fact, the residents of other jurisdictions that 
provided no or only some DMV data to CBP apparently continued to be 
enrolled in the Trusted Traveler programs.
    Last month, DHS claimed that its officials made statements that 
were, and I quote, ``true to the best of their knowledge at the time 
they were made.'' DHS then provided to the committee a few documents it 
provided to the Court, claimed that these corrected our record, and 
said, and I quote: ``we hope the Committee accepts this explanation.'' 
Let me be clear: We don't accept.
    Either DHS officials intentionally made misleading statements to 
this committee, or the officials charged with managing an essential 
Homeland Security program were ignorant about the program's operation. 
We are here to find out which it was.
    We are also here because in this matter as in so many other 
matters, the Department has refused to cooperate with the committee's 
investigation. In seeking clarity about the decision to exclude the 
residents of an entire State from CBP's Trusted Traveler programs, the 
committee has requested interviews and documents, but DHS has declined 
to fulfill either request. Even today, the subcommittee requested 4 
witnesses from the Department, but has received only 1.
    In fact, the Department even had the gall to allege that by seeking 
to understand the facts and circumstances surrounding the inaccurate 
and misleading testimony we received, the committee is acting 
improperly. Let me be clear about a few things on which I hope all 
committee Members will agree.
    It is never improper for this committee to ask questions of the 
Department. We will never simply accept inaccurate or misleading 
testimony or information--and it is absurd for the Department to 
suggest that we have an obligation to do so. This committee has both 
the authority and the duty to carry out oversight over the activities 
and decisions of DHS, and we will continue to use every investigative 
tool available to us to combat the Department's stonewalling.
    Finally, as Chairman, I guarantee that this committee will continue 
its efforts to hold this Department accountable for the many arbitrary, 
unjustifiable, and apparently politically-motivated decisions it has 
made under this administration until we find out the truth about these 
actions.

    Miss Rice. Without objection, Members not sitting on the 
subcommittee will be permitted to participate in today's 
hearing.
    I now welcome our witness. Our witness today is Mr. Robert 
Perez, the deputy commissioner for U.S. Customs and Border 
Protection. In this role, he serves as the agency's senior 
career official, overseeing the personnel who work every day to 
protect our Nation's borders. During his 28-year career in 
Federal law enforcement, Mr. Perez has also served as the 
director of field operations in CBP's New York field office and 
in Detroit, Michigan, and held various other positions at CBP 
headquarters.
    Without objection, the witness's full statement will be 
inserted in the record.
    I would now ask Mr. Perez if he would like to summarize his 
statement for 5 minutes.

STATEMENT OF ROBERT E. PEREZ, DEPUTY COMMISSIONER, U.S. CUSTOMS 
                     AND BORDER PROTECTION

    Mr. Perez. Thank you, Chairwoman Rice, Ranking Member 
Higgins, and Members of the subcommittee. Thank you again for 
the opportunity to discuss U.S. Customs and Border Protection's 
Trusted Traveler Programs and other related issues relating the 
State of New York's Green Light law.
    CBP's Trusted Traveler Programs are designed to provide 
pre-approved, low-risk travelers with expedited arrival 
processing at our Nation's ports of entry. CBP uses Department 
of Motor Vehicle, or DMV, data, along with other law 
enforcement information, to determine program eligibility of 
new and existing applicants.
    Earlier this year, New York residents were declared 
ineligible for CBP's Trusted Traveler Programs due to the lack 
of sharing of DMV information with CBP. At the time of that 
decision, it was our understanding that New York stood alone in 
not providing DMV information to CBP. While New York remains 
unique to our knowledge in terminating our access to all DMV 
information, CBP has since discovered other jurisdictions that 
do not provide DMV information to our agency either in whole or 
in part.
    Immediately following the discovery of additional 
jurisdictions, CBP provided clarifying statements to the court 
in the Southern District of New York prevent any 
misunderstandings made during the course of that on-going 
litigation. As well, I appreciated the opportunity to brief the 
Members of the committee, of this committee, and of the New 
York Congressional delegation on the details of this matter 
back on August 4 and August 5 of this year.
    We also began accepting applications for enrollment into 
our Trusted Traveler Programs from New York State residents and 
soon thereafter began engaging the other States and U.S. 
territories to identify a path forward for our agency to 
receive the relevant DMV information we believed was being 
provided but that, in fact, was not.
    While CBP regrets the confusion caused by this situation, 
it is important to note the serious concerns that remain with 
New York's Green Light law, which explicitly prohibits DMV 
records from being shared with CBP. I share these concerns with 
the committee today as the deputy commissioner of CBP but also 
informed by my nearly 28 years in law enforcement, including 
having previously served as the director of CBP in New York 
City for over 8 years. I can personally attest to the 
importance of information sharing among the law enforcement 
community there, arguably the bedrock of effective law 
enforcement throughout the United States.
    Contrary to facilitating effective law enforcement, on 
April 3 of this year, the State of New York amended its Green 
Light law to permit the sharing of DMV information with CBP 
only as necessary for individuals seeking acceptance into a 
Trusted Traveler Program or to facilitate vehicle imports and 
exports. However, this amendment also made it a class E felony 
to access, use, or share DMV information with CBP in violation 
of the statute, potentially presenting risks of personal 
liability for our personnel, as well as to our State and local 
law enforcement partners.
    Specifically, the law still prevents CBP from accessing, 
using, or sharing DMV records for other important mission-
related purposes, including identifying vehicles used in 
illicit activity, verifying the identity of a vehicle's owner 
before a traffic stop, and utilizing the information for 
investigations into criminal activities, such as narcotics 
trafficking, identity fraud, gang affiliation, and terrorism.
    In contrast, the Trusted Traveler Program vetting 
limitations we discovered, while important, have likely only 
prevented CBP from identifying potentially disqualifying 
information for program applicants and members from certain 
jurisdictions based on misdemeanor motor vehicle offenses.
    What is more concerning are the threats to officer and 
agent safety and the safety of the communities they serve. 
Under the laws like that of New York, an officer and agent 
approaching a stopped vehicle may not know if the registered 
owner or occupants are associated with a lookout or active 
warrant and may be unaware of prior involvement in illegal or 
suspicious activity. Of equal concern is the inability to 
freely share relevant information with State and local law 
enforcement partners in the pursuit and interest of public 
safety.
    As a career law enforcement officer charged with protecting 
the security of our country and the American people, I find it 
professionally unacceptable that anyone would consider limiting 
information sharing among law enforcement agencies, 
particularly with the knowledge of the tragic lessons we have 
all learned from past attacks on our Nation.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Perez follows:]
                 Prepared Statement of Robert E. Perez
                           September 30, 2020
    Chairwoman Rice, Ranking Member Higgins, and Members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss U.S. Customs and Border Protection's (CBP) Trusted Traveler 
Programs (TTPs) and related issues regarding the State of New York. 
When New York residents were declared ineligible for CBP's TTPs, it was 
with the understanding that New York State was unique in its decision 
to stop sharing all State Department of Motor Vehicles (DMV) 
information with CBP. While New York remains unique, to our knowledge, 
in affirmatively terminating our access to all DMV information, as you 
are aware, during the course of related litigation, CBP became aware 
that some other jurisdictions also do not provide some or all DMV 
information to the agency. CBP has clarified earlier statements made 
during the course of litigation through additional filings to prevent 
any misunderstandings.
                                overview
    To provide some background, on June 17, 2019, the New York State 
Legislature passed the Driver's License Access and Privacy Act, also 
known as the New York ``Green Light Law.'' The law explicitly 
prohibited DMV records from being shared with any ``agency that 
primarily enforces immigration law,'' specifically including CBP and 
U.S. Immigration and Customs Enforcement (ICE). On December 12, 2019, 2 
days before the Green Light Law went into effect, New York terminated 
CBP's access to NY DMV data via Nlets. Nlets, the International Justice 
and Public Safety Network, allows for the sharing of law enforcement, 
criminal justice, and public safety information. CBP utilizes it to 
access State DMV information in order to conduct its mission 
responsibilities. After the Green Light Law went into effect, CBP 
operators immediately began receiving error messages through Nlets, 
indicating they were no longer authorized to view NY DMV data that they 
previously had been able to view. The operators promptly notified 
Headquarters of the problem. New York's action prevented CBP and ICE 
from accessing relevant information needed for many of the agencies' 
mission responsibilities, including aspects of an individual's criminal 
history that only the State DMV maintains.
    On February 5, 2020, Acting DHS Secretary Chad Wolf sent a letter 
to the acting commissioner and executive deputy commissioner of the New 
York Department of Motor Vehicles, notifying them of DHS's decision to 
suspend the eligibility of New York residents to enroll or re-enroll in 
CBP's TTPs because New York's law prevented CBP from accessing New York 
DMV records to determine whether a TTP applicant or re-applicant met 
program eligibility requirements.
    On April 3, 2020, as part of its fiscal year 2020-21 budget, New 
York amended its Green Light Law to permit the sharing of DMV 
information with CBP ``as necessary for an individual seeking 
acceptance into a trusted traveler program, or to facilitate vehicle 
imports and/or exports.'' These amendments, however, also made it a 
class E felony to access, use or share DMV information in violation of 
the statute, potentially presenting risks of personal liability for CBP 
personnel as well as State and local partners interacting with CBP. 
Specifically, as amended, the law continues to prevent CBP from 
accessing, using or sharing DMV records for other important mission-
related purposes, including identifying vehicles being used in illicit 
activity, verifying the identity of a vehicle's owner before a traffic 
stop, and investigating activities such as terrorism and human 
smuggling.
    Information-sharing and local, State, and Federal partnerships have 
always been the bedrock of effective law enforcement in the United 
States. As we learned from the September 11, 2001 terrorist attacks and 
other such tragedies in the United States, and as discussed in detail 
in the 9/11 Commission Report, the lack of information sharing among 
law enforcement agencies can have catastrophic consequences. Indeed, 
one of the primary reasons that the Department of Homeland Security was 
created was to ensure greater information sharing among the Nation's 
various law enforcement partners.
    To clarify again, at the time New York residents were declared 
ineligible for TTPs on February 5, 2020, it was with the understanding 
that New York State had stopped providing DMV data to CBP that is 
necessary to effectively screen TTP applicants, and that New York was 
unique in its decision to stop sharing this information. CBP maintains 
that DMV information is important to inform TTP vetting, and to our 
knowledge, New York remains unique in actively terminating CBP's access 
to full DMV queries while having previously provided the information. 
However, CBP has since become aware that there are other jurisdictions 
that do not provide some or all DMV information to the agency.
    This awareness came in connection with preparing a response to a 
July 10, 2020 filing in a lawsuit pending in the Southern District of 
New York wherein plaintiffs made specific assertions that New York was 
not the only State that did not provide CBP access to DMV information. 
While Plaintiffs' assertions were based on information that pertained 
to ICE, further inquiry in pursuit of investigating plaintiffs' 
specific allegations, revealed that 5 States, Connecticut, Florida, 
Illinois, New Jersey, and Hawaii, as well as the District of Columbia 
and Puerto Rico provide access to driver's license information 
(referred to as the Driver's License Query) via Nlets, but do not 
currently provide access to driver history information, including 
driving-related criminal histories (referred to as the Driver History 
Query). CBP uncovered that the District of Columbia, Puerto Rico, and 
all States except New York, Hawaii, and Missouri, provide vehicle 
registration information (referred to as the Vehicle Registration 
Query) in response to CBP's standard Nlets queries. In addition, CBP 
determined that 2 territories, Guam and the U.S. Virgin Islands, do not 
participate in Nlets DMV-related queries, meaning that their DMV 
records are not available to CBP or other Nlets users. While CBP lacked 
access to DMV information for those jurisdictions, it continued to 
accept, vet, and--when appropriate--approve TTP applications from these 
States, territories, and the District of Columbia.
    Upon the discovery of this additional information, CBP ensured that 
it maintained full candor with the courts in the Southern District of 
New York and the District of Columbia that are currently overseeing 
litigation regarding the Department's February 5th Decision, explaining 
what had been revealed and how it impacted what the Government had 
conveyed in each litigation matter.
      how cbp operators are addressing the now-known discrepancies
    Now that CBP is aware of variances in its access to DMV information 
among domestic jurisdictions, CBP is reaching out to those 
jurisdictions where it does not receive responses to all DMV-related 
Nlets queries to determine how CBP can access this data to ensure we 
receive all information necessary to conduct full and effective TTP 
vetting.
                               in closing
    As mentioned earlier in my testimony, after New York residents were 
declared ineligible to participate in TTPs, New York State amended its 
law to allow sharing of State DMV records with CBP ``as necessary for 
an individual seeking acceptance into a trusted traveler program . . . 
'' Although New York has not yet restored CBP's access to DMV records, 
CBP has restored the ability of New York residents to apply for TTPs, 
including Global Entry, NEXUS, Secure Electronic Network for Travelers 
Rapid Inspection (referred to as ``SENTRI''), and Free and Secure Trade 
(referred to as ``FAST''). CBP's concern was--and continues to be--the 
integrity of TTPs, which are intended to provide travel facilitation 
benefits to pre-approved travelers who have been deemed to be low-risk. 
We are hopeful that the New York DMV will soon restore CBP's access to 
DMV records pursuant to its amended law.
    CBP needs to be able to utilize all available information--
including DMV data--as part of the risk-assessment process to make an 
informed determination regarding an applicant's eligibility for TTPs. 
DMV data is used to confirm identities, addresses, and vehicle 
registrations of applicants, as well as to identify potentially 
disqualifying information.
    While the absence of this vetting criteria likely has not prevented 
CBP from identifying applicants linked to terrorism or serious crimes, 
it has likely prevented CBP from identifying potentially disqualifying 
information related to motor vehicle offenses rising to the level of a 
misdemeanor conviction or offense.
    CBP will continue to seek access to information derived from all 
DMV queries via Nlets to ensure that it can effectively execute all of 
its mission responsibilities in securing the homeland.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    Miss Rice. I thank the witness for his testimony.
    I will remind the subcommittee that we will each have 5 
minutes or so, since there is, I think, only 3 of us, as long 
as the witness is OK with that, to question the witness.
    I will now recognize myself for questions.
    Mr. Perez, we now know from the filings made by the 
Department of Justice in Federal district court in New York and 
from your own supplemental declaration in that case that there 
were other U.S. jurisdictions that provided limited or even no 
DMV data to CBP like New York did.
    According to DOJ'S filings, Guam and the Virgin Islands, 
``do not provide any DMV data to any user of the Nlets system 
that CBP queried to get DMV data.'' Further and, again, I will 
quote, ``the District of Columbia, the U.S. territories, Puerto 
Rico, Guam, and the U.S. Virgin Islands and 6 States--New York, 
Connecticut, Florida, Illinois, New Jersey, and Hawaii--do not 
provide responses to CBP for queries for driver history 
query.''
    Yet, without this access, CBP continued to process and 
approve applications for TTPs for residents of Connecticut, 
Florida, Illinois, New Jersey, Hawaii, District of Columbia, 
Guam, and the U.S. Virgin Islands.
    So my first question, Mr. Perez, is: Do you know why Mr. 
Wolf claimed that he had to ban the residents of New York State 
from the program while DHS continued to process applications 
for residents from these other jurisdictions I just named?
    Mr. Perez. Thank you, Madam Chairwoman.
    So, from CBP's perspective, what I can tell you is that at 
the time and only up until sometime in July during the court 
proceedings, when some questions were asked and we subsequently 
did a deep dive technologically on our OIT systems to see what 
exactly was being returned to us by way of responses, it was 
only then that we as an agency became aware of what was being 
transmitted, the returns we were receiving, and the lack of 
response versus negative responses, if you will. That is what 
unearthed ultimately this--these nuances, if you will, or 
differences in these other States as you listed in the 
territories where we were getting partial returns and some 
returns for those who were in the program, in the Nlets' 
platform to transmit that information. In the cases of 
territories, it was then made aware that they were not even 
transmitting into the platform.
    So that was everybody's understanding up until that point 
in time and not unlike--again, without getting into too much 
detail--but not unlike I shared in the briefings I provided 
last month, it wasn't until and it was only because, through 
the Trusted Traveler Programs, that we queried in batches. 
Because of the volumes of information that come back and forth 
there, the way that that system had been designed and one of 
the things we are fixing is the manner in which those returns 
come back.
    So those flags were not readily evident, and it was only 
after that deep dive that we were made aware that then, other 
than New York, we had this--these other anomalies with the 
other States. If I can make one other point, New York still 
remains very unique in this regard. When we query into New 
York, even as I sit here today, New York provides a definitive 
response that reads ``ORI,'' which means the organization's 
identifier restricted. They singularly are still the only State 
and territory as I sit here that I am aware of that provides us 
that affirmative negative response to a query, and this is in 
light and even despite the fact that, back in April, they said 
they would turn it on at least for the Trusted Traveler 
Programs. To date, they have not.
    But that in and of itself presents and gives the people on 
our staff a much more readily identifiable response as opposed 
to these very unique systems across every State. They all do it 
differently. It is a very challenging IT system. Again, I don't 
want to bore with you those details.
    Miss Rice. So the IT system that you did the deep dive on 
when you were looking more into this, that has always been 
within your ability to do a deep dive into that system to get 
additional information. Is that correct?
    Mr. Perez. Well, it was our staff who did that deep dive.
    Miss Rice. What I am asking you just----
    Mr. Perez. Correct.
    Miss Rice [continuing]. Yes, yes or no.
    Mr. Perez. Yes, it was our folks who----
    Miss Rice. So, well before this, you had access to that 
information in order to do a deep dive to understand exactly 
what information you would get from the various States. If you 
wanted to, you could do that deep dive. But it wasn't until 
this happened that you did.
    Mr. Perez. Correct.
    Miss Rice. OK. So here is my question. You have said on 
numerous occasions: Our understanding was that New York was 
unique.
    What I am trying to understand is, what was that based on 
if you made that decision that New York was unique before you 
ever did that deep dive? So what was that understanding that 
you and others had that made New York so unique?
    Mr. Perez. So, so----
    Miss Rice. Can I just say this? I didn't mean to interrupt, 
but I am going to. I apologize.
    I think it is really important to put my questions in light 
of other things that were happening around the time, from the 
time that New York passed the Green Light law. After that was 
passed, a New York colleague of ours, Elise Stefanik, she 
apparently made reference to how Cuomo's Green Light law was 
hindering local law enforcement. She did that through a tweet, 
which was re-tweeted by the President of the United States, 
which tells us that he was aware, I mean, of this Green Light 
law and re-tweeted what Stefanik, Congresswoman Stefanik said 
about it. He has--the President has also made comments on 
multiple occasions about punishing States that he perceives as 
sanctuary States.
    So I think it is important to kind-of put all of this in 
light of that. Right? New York passes the Green Light law. 
Elise Stefanik says it is going to hinder law enforcement. The 
President retweets that. He makes multiple statements about 
punishing sanctuary States, sanctuary cities like New York City 
and New York State, and then, after the actual enactment of 
Green Light law, which came at the end of last year, this 
action is taken.
    So I am trying to understand what your understanding and 
your colleague's understanding was based on, if it wasn't based 
on any deep dive that was done at the time that New York State 
residents were banned from the program.
    Mr. Perez. So, thank you, Madam Chairwoman.
    So, again, from my perspective, and I can tell you, again, 
from the CBP perspective, what we were basing our understanding 
on and the lack of anything that told us at the time that 
required anything further than what we had been doing for 
years, candidly, in a very complex IT exchange, if you will, by 
virtue of what is transmitted by 50 States, territories, and 
the like that is very unique in the returns for specifically 
Trusted Traveler Programs, there is nothing that made the 
agency at the time readily aware of any of these anomalies. We 
own that issue. I mean, that is the truth. That is part of what 
it is that we have subsequently begun to fix once we discovered 
those anomalies.
    Miss Rice. So but, Mr. Perez, I understand what you are 
saying. OK.
    But once New York was banned, Mr. Katko, my colleague from 
New York, our colleague from New York, me, I know Congresswoman 
Clarke from New York, we all started sounding the bell. Why is 
New York being punished when other States withhold the same 
information? So it is not as if you at CBP or Mr. Wolf were not 
aware that there were claims that New York State was being 
treated differently than other States similarly situated.
    So Mr. Wolf claimed that he had to ban the residents of New 
York State from the program while, at the same time, DHS 
continued to process applications for residents from those 
other jurisdictions. Why?
    Mr. Perez. So, if I may, Madam Chairwoman, a very specific 
difference that still remains with respect to what was 
occurring, even then, with New York. New York banned and 
stopped transmitting any and every bit of information that they 
were prior and still capable of transmitting. That is still 
unique. What was happening with the other States and 
territories, we were still receiving these returns. Again, 
there was nothing that we were aware of readily by virtue of 
what we were receiving from those returns with respect to the 
Trusted Traveler Program that would have alerted us to the fact 
that there was one of several aspects of the data that was 
being provided to us that was, in fact, not being returned.
    Miss Rice. So, Mr. Perez----
    Mr. Perez. Because we were receiving information from every 
single one of those jurisdictions. We were receiving something 
from them, from the ones who were in the----
    Miss Rice. But it was not enough. It was not enough.
    This is my question.
    Mr. Perez. Uh-huh.
    Miss Rice. Shouldn't the agency charged with running this 
program know how it actually functions? I mean, how could you 
not know how these programs worked before you banned 19 million 
people from participating in them? Actually a more disturbing 
question is: It doesn't seem that all of the States that we 
have identified that were similarly situated--I didn't say 
exact--but similarly situated as where New York was, still to 
this day Mr. Wolf has taken no action against those States to 
ban any of the residents from those States from participating 
in the Trusted Traveler Program.
    So can you understand why the perception and perhaps, when 
we get to the bottom of this, the reality looks as if New York 
State was being punished because it was, in the President of 
the United States' words, a sanctuary State? Can you 
understand, just yes or no, the perception that New York State 
was being punished, the residents? Not Cuomo, because he can go 
wherever he wants. I am talking about the thousands of people 
in New York State who rely on the Trusted Traveler Program to 
travel for work, their livelihood, to put food on the table. 
Can you understand that that is the appearance? Yes or no?
    Mr. Perez. Madam Chairwoman, I can absolutely understand 
how some people----
    Miss Rice. Yes. Or----
    Mr. Perez [continuing]. Might get that impression.
    Miss Rice. OK. I am just asking you----
    Mr. Perez. I am here to tell you that that----
    Miss Rice [continuing]. If you can----
    Mr. Perez [continuing]. Is absolutely not the case.
    Miss Rice. I am just asking you that. OK. So now----
    Mr. Perez. All right. But it was not the case, Madam Chair. 
Respectfully, I am just letting you know that, as the senior 
career official in CBP, I can--speaking for CBP, we were basing 
what it is we were doing on what we understood the facts to be 
at that time.
    Miss Rice. OK. Now----
    Mr. Perez. Solely that.
    Miss Rice. Was there communication, whether through email 
or reports, within your agency that talked about your 
understanding about how New York was unique?
    Mr. Perez. I would imagine there were emails.
    Miss Rice. Great.
    Mr. Perez. I am not sure there----
    Miss Rice. So----
    Mr. Perez [continuing]. Are emails.
    Miss Rice. Thank you.
    Mr. Perez. I am pretty sure there are some.
    Miss Rice. OK.
    Mr. Perez. There were staff-level discussions----
    Miss Rice. Yes.
    Mr. Perez [continuing]. About that----
    Miss Rice. That----
    Mr. Perez [continuing]. Looking into the matter.
    Miss Rice. That makes sense.
    So, in July, the committee requested 4 categories of 
documents from the Department regarding the decision to exclude 
New York State residents from the TTP Program. No documents 
have been provided by the Department in response to the 
committee's request.
    Do you have any documents with you here today that can shed 
some light on why, where this understanding came from that New 
York was unique?
    Mr. Perez. I don't have them with me today. But what I can 
share with you, Madam Chair, is that those are actively being 
worked on. I know the committee appreciates, I know you 
appreciate that sometimes it takes time to go through and 
compile everything that is being asked. But, more importantly, 
there is a complicating factor here, as the attorneys in our 
agency and the Department have shared with me, that is the on-
going open litigation that just requires further review and 
analysis before those documents are provided. But my 
understanding is, as soon as we are ready, we will provide and 
be responsive to that request.
    Miss Rice. It is not that heavy a lift, I would think. I 
mean, you have them all in your possession. It doesn't take 
lawyers that long to figure out what is relevant to a request 
from a committee that has oversight over the agency.
    But I think it has more to do with this, I am afraid: In 
July of this year, DHS announced that they were lifting the ban 
on New York State residents applying and re-applying for 
Trusted Traveler Programs. That was on July 23. That same day, 
following DHS's announcement that they were lifting the ban, 
Federal Judge Jesse Furman of the Southern District of New York 
asked DHS how the reversal would affect the lawsuit that was 
presently pending before Judge Furman.
    At that time the Government, the Government, not us, not 
this committee, not Ds, not Rs--it was not a political thing--
the Government sent a letter, withdrawing their motion to 
dismiss the case because they discovered that the motion and 
their case was based on inaccurate and misleading statements 
made by DHS officials concerning the differences between New 
York's law and similar ID laws across the country.
    Now, in order for the Southern District, I believe, which 
was the issuing agency, to come to that conclusion, they had to 
have in their possession some kind of paperwork or oral 
testimony that enabled them to come to the determination that 
your assumptions, your understandings were incorrect and, in 
fact, possibly false, which is why they withdrew it from a 
judge because they did not want to give the imprimatur of their 
office and the credibility that goes with it to people and an 
agency that had given inaccurate, misleading, potentially 
knowingly false information. So I think it is important to 
kind-of put it in the context of that too.
    I have gone over my 5 minutes. I now recognize the Ranking 
Member, Mr. Higgins, for his questions.
    Thank you, Mr. Perez.
    Mr. Higgins. Thank you, Madam Chair.
    Deputy Commissioner Perez, thank you for your 28 years of 
service in law enforcement to our country.
    Let me clarify that I have a lot of friends across the 
aisle and 2 of my colleagues across the aisle that I have the 
deepest respect for are seated before you here today, and I 
know that Madam Chairwoman has a passionate and very focused 
representation for the people of New York.
    From my perspective, as my background in law enforcement 
and yours, we must recognize that that is--the purity of that, 
the seeking of truth here, because I believe that I think we 
can resolve this thing. I would like to see it resolved. I 
would like to fix it and move on. We have obligations for this 
committee.
    So, that being said, when a Customs--it has been indicated 
that this is somehow politically-driven, and I understand that 
suspicion in today's environment in America. But when a Customs 
and Border Patrol protection officer or ICE, dealing with 
transnational crime, gangs, narcotics, counterfeit products, 
human trafficking, when they call in for data on someone that 
they are enacting with, they have reasonable suspicion and they 
need background data on, is anyone worried about tweets? Do you 
know of an officer out there that checks the President's tweets 
before he moves forward with an inquiry?
    Mr. Perez. I would expect not, Ranking Member.
    Mr. Higgins. I don't know of any.
    Mr. Perez. No.
    Mr. Higgins. You are focused on that interaction at that 
moment in order to accomplish that mission and peacefully and 
within the parameters of the Constitution and in recognition of 
the civil rights of that individual you move forward with that 
interaction. Nobody is checking any tweets.
    Commissioner, it is my understanding that CBP uses the 
National Law Enforcement Telecommunications System that is 
referred to as Nlets to access State, territory, and local-
level data that could preclude an applicant from qualifying for 
a CBP Trusted Traveler Program. What happened after the Green 
Light law went into effect when your officers attempted to 
query information from Nlets for Trusted Traveler Programs 
vetting? Did an error message appear?
    Mr. Perez. It did, Ranking Member, as I mentioned 
previously. There was a very specific and singular response, 
singular in the sense that there is no other State or territory 
that I am aware that provides this type of response.
    Mr. Higgins. Right.
    Mr. Perez. No ORI restriction.
    Mr. Higgins. Let's move there to the interest of time. The 
Nlets website states it has over 150 message types including 
DMV-related data. We have learned that there are a few States 
and territories that do not provide some or all DMV data times 
but still provide a range of data types in Nlets.
    Was New York State the only jurisdiction that returned an 
error message for all data types when CBP attempted to query a 
Trusted Traveler Programs vetting?
    Mr. Perez. It is my understanding that, yes, specifically 
stating ORI restricted.
    Mr. Higgins. Thank you.
    It was pointed out that Guam and the Virgin Islands did not 
provide DMV-related data through Nlets, while still providing 
other data. Did you receive error messages from Guam and the 
Virgin Islands?
    Mr. Perez. No, not that I am aware of.
    Mr. Higgins. To the best of your knowledge, has Nlets data 
ever been used to disqualify a resident of Guam or the U.S. 
Virgin Islands from a CBP Trusted Traveler Program?
    Mr. Perez. Not that I am aware of.
    Mr. Higgins. Has the Department initiated conversations 
with Guam and the Virgin Islands and jurisdictions that are 
only sharing partial DMV data to work out an agreement to 
access that data? If so, what is the status of those 
conversations?
    Mr. Perez. Thank you, Ranking Member. We have. We 
immediately began to initiate those conversations with all 
those jurisdictions. Varying states of status across the board, 
again, given the difference between capability of each of the 
States and the territory, whether they even have the 
information readily available. Some don't even gather it up and 
automate it. It is really, as you alluded to earlier, 150 types 
of data that is in this system. It is literally, when you are 
dealing with the entire country and all the U.S. territory, all 
over the place, if I may, and that makes it a bit complex.
    Nonetheless, by and large, we are getting receptivity to 
the request. In the end, we expect to get all the data we 
require from all the States and the territories.
    Mr. Higgins. Thank you for your answers.
    If the Chairwoman will indulge, I would like to give the 
commissioner an opportunity to respond to the phrase 
``political retribution.'' It has been presented that this, 
that the actions taken that we are discussing here today by CBP 
are retribution for New York's position on some things and the 
President's tweet. It has been used by the New York State 
Attorney General, the term ``political retribution,'' and it 
has been echoed by the Majority to describe the Department's 
decision to exclude New York State residents from enrolling or 
re-enrolling in CBP Trusted Traveler Programs earlier this 
year.
    I don't believe that accusation is true. Again, with the 
spirit of trying to get past this thing and seek a resolution, 
would you like, would you care to comment on that accusation 
that the CBP actions----
    Mr. Perez. Thank you, Ranking Member.
    Mr. Higgins [continuing]. Are based on political 
retribution.
    With your answer, I will close, Madam Chair.
    Mr. Perez. Pardon me and thank you, Ranking Member.
    Again, as I mentioned just a moment ago, from my 
perspective, from where I sit in my position in representing 
this agency, I assure you that it was not. It was based on the 
facts at that time and, frankly, the facts that still remain. 
New York remains unique, unique in the returns when what it is 
we are trying to access DMV data. We are totally shut out as an 
agency from getting anything from New York wherein they have 
the capability to provide that data to us readily and, in fact, 
prior to this Green Light law, they did. That remains unique 
and even before they made the amendment to their law in April, 
which made it a class E felony to share data and where they 
provided for the ability to at least share partial for the use 
of the Trusted Traveler Programs.
    Again, as I sit here today, we still receive nothing from 
New York, absolutely nothing. We get the return that, from the 
system, as I referred to before, being restricted, that 
negative message, and that is a unique acceptance as speculate 
of New York's Green Light law and the impact that it continues 
to have on CBP.
    Mr. Higgins. Thank you, sir.
    Madam Chair, I yield.
    My time has expired.
    Miss Rice. The Chair now recognizes--thank you, Mr. Ranking 
Member.
    The Chair now recognizes the gentleman from California, Mr. 
Correa.
    Mr. Correa. Thank you, Madam Chair.
    Mr. Perez, welcome. Thank you for being here today.
    Mr. Perez. Thank you, Congressman.
    Mr. Correa. I wanted to follow up with some of your 
statements that you just made a little while ago in terms of 
facts.
    You mention that the Green Light law of the State of New 
York came to your attention when you started getting error 
messages essentially from IT inquiries, so to speak. Yet you 
all knew that this Green Light law and its specifics was 
heading your way before it was actually implemented. Yes? No?
    Mr. Perez. I don't recall specifically myself having 
knowledge and when it is I became aware of when they passed the 
law. I know, Congressman, that they passed it earlier in the 
summer. It became effective or we began, the officers, the 
agents on the front line began getting the messages----
    Mr. Correa. In my----
    Mr. Perez [continuing]. Error messages in December of last 
year.
    Mr. Correa. The reason I am asking that is that your 
professional organization--and, as you said, it is a very 
complicated job you have to do, and I anticipate your 
Government relations people are pretty up on this stuff. So 
they can tell you way in advance that this is what is going to 
happen. If you don't have those capabilities, I am getting 
concerned about what capabilities you really have.
    State of California passed a driver's license law 5, 6, 
years ago. I was in the State legislature when that happened. I 
can tell you that ICE was in Sacramento talking to us about the 
law's implications way before it was passed, way before it was 
signed. So, for you to say that you only figured out that this 
law, New York Green Light law, was going to create challenges 
for you after it was implemented kind-of leaves me puzzled 
here.
    Mr. Perez. So, if I may, Congressman, I don't recall any 
outreach and any exchange, at least from the CBP level, of 
any----
    Mr. Correa. From the State of New York legislature.
    Mr. Perez. From the State of New York.
    Mr. Correa. So you-all--is it your statement, Mr. Perez, 
that you were caught completely off-guard with the Green Light 
law and its applications and its details until after it was 
actually signed into law?
    Mr. Perez. My personal understanding is, my personal answer 
to that is yes----
    Mr. Correa. For the whole Department?
    Mr. Perez [continuing]. That it was not in law.
    Mr. Correa. So you are saying----
    Mr. Perez. But I am also not aware of the agency being 
consulted or asked by New York State----
    Mr. Correa. Well, but you--you would be----
    Mr. Perez [continuing]. For any----
    Mr. Correa [continuing]. Following this. But you would be 
following this at an agency whose business it is to follow this 
kind of legislation. You did it in the State of California, and 
New York has got New York has got 20 million residents. So you 
figure you would probably have a heads-up on this. Just a 
statement.
    Mr. Perez. Uh-huh.
    Mr. Correa. SENTRI program, Trusted Traveler Program----
    Mr. Perez. Right.
    Mr. Correa [continuing]. It is a very complex application 
process. Very extensive. You go into a person's criminal 
background. You look at a lot of records. Yes? No?
    Mr. Perez. For the Trusted Traveler Programs.
    Mr. Correa. Yes.
    Mr. Perez. Pardon me, Congressman. Yes.
    Mr. Correa. Yes.
    Mr. Perez. Uh-huh. Uh-huh.
    Mr. Correa. So understanding how and when the DMV 
information is used is important. So in a supplemental 
declaration where Mr. Acosta, who I wish would have been here 
today, he stated, and I am going to quote him. He said: While 
available DMV records may manually be queried through National 
Law Enforcement Telecommunications System by TTP, vetting 
officers to complete their assessment in determining program 
eligibility and admissibility for the TTP applications does not 
as a matter of policy require that vetting officers initiate 
manual queries of NI for every TTP applicant, but as a matter 
of practice, a vetting officer may at his discretion initiate 
manual query available DMV recovered.
    So my question is, is DMV data always used to vet every 
applicant, the Trusted Traveler Program?
    Mr. Perez. The DMV----
    Mr. Correa. Let me repeat that.
    Mr. Perez. Yes.
    Mr. Correa. Is DMV data always used to vet every applicant 
to the Trusted Traveler Programs?
    Mr. Perez. The DMV data is part of the totality of data 
that we rely upon.
    Mr. Correa. Is it always used?
    Mr. Perez. Yes, it is my understanding that it is.
    Mr. Correa. It is always used.
    Mr. Perez. It is part of the information.
    Mr. Correa. DMV data is always used by vetting officers. 
DMV data is always required, Trusted Traveler Program.
    Mr. Perez. It is my understanding, Congressman, that the 
DMV data is part of the suite of information and queries done 
uniformly to assess the risks associated with an applicant who 
is trying to participate in the Trusted Traveler Program. 
Again, as I mentioned before, it was through the analysis and 
the deeper analysis on what it is we were actually returning, a 
no-response versus positive and negative responses, 
essentially, and that discovery of what was coming to us in its 
totality versus what was coming to us in pieces and/or 
incomplete, that then we subsequently identified that there was 
some jurisdictions that were not providing us total--the total 
information from the DMV that we required. If I can make a 
comment about California's----
    Mr. Correa. Will you indulge us, Madam Chair?
    Miss Rice. Yes.
    Mr. Correa. Go ahead.
    Mr. Perez. Thank, Congressman.
    I think it is important distinction--I am glad you raise 
it--in California, Congressman, just about the practicality of 
what was enacted there because, again, I think it is important 
for the committee to understand and know how the New York law 
still stands unique. When it comes to data sharing and the 
utilization of the data itself, while California and other 
States that have passed Green Light laws has some restriction 
on use of the DMV data that we receive, it has no bearing, none 
whatsoever, on what it is we need to do with other law 
enforcement missions, on how it is we adjudicate the Trusted 
Traveler Program, and our ability to share is absolutely 
unhampered. We do still get returns from California.
    Mr. Correa. Let me ask you.
    Mr. Perez. Very different than what is happening in New 
York.
    Mr. Correa. If I can interrupt you.
    Mr. Perez. Please.
    Mr. Correa. In this year of 2020, what percentage of 
applicants have DMV data been used as part of the vetting 
process for the Trusted Traveler Programs?
    Mr. Perez. My understanding is, again, that is that part of 
the----
    Mr. Correa. A hundred percent?
    Mr. Perez [continuing]. Standard protocol. That is part of 
the standard protocol. Now from a practical perspective, just 
to be clear, Congressman, if I may, respectfully, now that we 
know that, while we have been querying DMV information and 
believing that, for example, the U.S. territories that have not 
had the capability to provide that to us, clearly we have been 
adjudicating some applications where those returns had not been 
returning to us. So----
    Mr. Correa. So your statement is you have been adjudicating 
and essentially approving Trusted Traveler Programs in other 
jurisdictions outside of New York without having DMV 
information.
    Mr. Perez. That is what we have discovered. That is what 
exactly we are remedying at the moment, Congressman.
    Mr. Correa. So I guess, if you may indulge me, Madam Chair, 
you shut down New York for not providing you that information, 
but there are other jurisdictions that you continue to work 
with when New York was shut down, given the DMV information or 
lack thereof. Yes? No?
    Mr. Perez. So it is my understanding that at the time that 
that and subsequent to that decision being made with New York, 
there were conversations with New York to try to find a 
mutually-agreeable remedy and path forward.
    Mr. Correa. But what I am saying, Mr. Perez, and I don't 
want to be argumentative with you.
    Mr. Perez. Please, no, please.
    Mr. Correa. I am just trying to get the facts here.
    You shut down New York because they wouldn't give you DMV 
information. Yet other jurisdictions continue to have their 
Trusted Traveler Program applications approved without DMV 
information. It is your statement here today to this committee 
that you just didn't know that you were processing other 
jurisdictions. So you continued to process them, but New York 
kind-of came to your attention, and, therefore, you shut them 
down.
    Mr. Perez. So that is not exactly correct, Congressman.
    Mr. Correa. OK.
    Mr. Perez. If I could explain, I am going explain it, what 
and how that played out.
    New York was the sole entity, State, or territory, that 
shut us down from something that was already being provided 
for. All the other States and territories that were providing 
something, we were getting some DMV information. What we 
unearthed and what we discovered was that there was one aspect 
of the multiple queries, the driver history, OK, that was not 
being returned by some of these other----
    Mr. Correa. But----
    Mr. Perez [continuing]. States.
    Mr. Correa. Madam Chair, I am just--final statement here.
    Mr. Perez. Please.
    Mr. Correa. Mr. Perez, I am just trying to figure out. 
Again, some jurisdictions didn't provide any or some. New York, 
you discovered, was not going to. Therefore, you gave them 
separate treatment.
    Mr. Perez. We at the time believed that New York was unique 
in not providing anything. It was our belief that those----
    Mr. Correa. Couldn't you----
    Mr. Perez [continuing]. Returns----
    Mr. Correa. Couldn't you check that in your database to 
show that you had other jurisdictions where the Trusted 
Traveler Program was being approved despite not having that DMV 
information?
    Mr. Perez. That what was we only unearthed later on in 
July, Congressman. Again, at the time that we shut New York 
down, it was our understanding and our belief that we were 
getting the returns on the DMV information complete from every 
other jurisdiction. It was only after later on, months later, 
that we discovered otherwise.
    Mr. Correa. Madam Chair, if I can, just a quick concluding 
statement.
    I hear what you are saying. I am bothered, though, because 
you took action against the State of New York without fully 
vetting the facts. So it is almost as though you are punishing 
New York for what they are doing. Yet the other jurisdictions 
continue to operate and get the benefits of Trusted Traveler 
Program without providing the DMV information. That to me is an 
act of punishment against a certain jurisdiction, and in my 
opinion as elected officials, as Government officials here to 
serve the public, our citizens, you are supposed to serve the 
citizens, and for you to take that kind of action without 
knowing the facts raises a lot of alarms.
    The State of New York, like the State of California, we are 
trying to operate a system or economy or society based on what 
we have to work with. We have a horrible immigration system. 
Last time it was we had an immigration reform bill was under 
the great California President Reagan. Today, in California, 
what we try to do is make sure that people that drive in our 
streets know how to drive--that means they have a driver's 
license--are insured, and that when the police officer pulls 
them over, they have an ID, and we know who they are. That is 
why we want to have people driving with driver's licenses. It 
is not to provide anybody with any privileges. It is a public 
policy issue, and that is what we try to do.
    You know, I am sad because you took action against the 
State of New York that you didn't have to, if you kind-of went 
back and just checked your records and see who was not 
providing you with DMV records all this time.
    Madam Chair, thank you very much.
    Miss Rice. I thank you, Mr. Correa.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Guest.
    Mr. Guest. Thank you, Madam Chairman.
    Commissioner Perez, I thank you for being here. I thank you 
and the men and women that serve underneath you for the service 
that you provide every day to our country. As we talk about the 
Trusted Traveler Program, there is actually several different 
programs underneath the Trusted Traveler Program. Is that 
correct?
    Mr. Perez. Correct, Congressman, yes.
    Mr. Guest. I was able to find at least 5: The TSA PreCheck 
being one, the Global Entry program, the NEXUS program, the 
SENTRI program, and the FAST program. Would all 5 of those 
programs be underneath the global umbrella, if you will, of the 
Trusted Traveler Program?
    Mr. Perez. They would be, Congressman. The only 
clarification I will make is that the TSA PreCheck is 
administered by a different agency other than CBP--TSA, 
obviously, and the Department of Homeland Security. So we in 
CBP don't have oversight regarding the implementation of that 
program. All the other programs you mentioned are run by CBP.
    Mr. Guest. Talk about just the general purpose of these 
programs, specifically the one that CB--the programs that CBP 
administered.
    Mr. Perez. So it really is a risk-management, a very 
critical, important risk-management tool, that it enables to us 
identify, again, pre-vetted, low-risk travelers that we can 
subsequently, you know, approve for this Trusted Traveler 
status so that, when they are traveling across the borders, 
whether it be an airport, a seaport, or a land border, they get 
expedited privilege and the ability to clear the border in a 
faster manner, thereby reducing the burden on the front-line 
men and women of the agency and how it is they assess risk, 
which becomes, again, very critical in an ever-present 
environment of finite resources when you are trying to identify 
serious risks to the homeland.
    Mr. Guest. So for an individual to qualify for any of these 
programs that we just listed, there is a vetting process that 
you have discussed. Is that correct?
    Mr. Perez. That is correct, Congressman.
    Mr. Guest. Is information sharing between agencies, is that 
necessary to properly vet individuals that are applying for any 
of the programs under the Trusted Traveler Program?
    Mr. Perez. So, directly so, not so much, only in that the 
vetting process is very much an internal process in CBP. 
Nonetheless, because we are querying and leveraging other 
systems as well. With respect to performing those background 
checks, they are, as you might imagine, at times and can be 
informed by that interagency collaboration.
    Mr. Guest. OK. That is what I want to talk about. So, when 
I am talking information sharing for the purpose of this, it is 
important that you and the Federal Government be able to access 
other information data systems, State systems, Federal systems 
to properly vet individuals to see if they would be a proper 
candidate from one of these programs. Is that right?
    Mr. Perez. It is, Congressman. Again, the vetting program 
itself for these different programs, the vetting process is 
something that is CBP-centric, but nonetheless, again, further 
informed by all that interagency collaboration and how those 
collaborations, how that data exchange, how that information 
exchange does inform our other holdings that are leveraged in 
order to assess risk and do background checks and vetting of 
anybody who applies into these programs.
    Mr. Guest. Commissioner, let me ask you this: Is DMV-
related data information, is that one data set that you rely on 
to vet applicants for this program?
    Mr. Perez. It is.
    Mr. Guest. Is it your belief--and I know, based on 
testimony earlier, is it your belief that, if that DMV 
information is available that it is always used? There may be 
times where the information--we know there are certain States 
that don't--because of State laws that don't provide that 
information. But when available, that is one of the subsets of 
data that is used to vet travelers for this program?
    Mr. Perez. It is, Congressman. In fact, those queries are 
readily being made, and those are the returns that we get back, 
as I described earlier.
    Mr. Guest. All right. Let me close with this: When we have 
States and/or territories that either, No. 1, refuse to provide 
the information at all or, in some cases, where they severely 
limit the information that they are sharing, does that have the 
potential to make the traveling public less safe? It would seem 
to me one fewer data sets that you or the agency would be able 
to look at. So, in theory, by refusing to share information 
with CBP, refusing to share information with the Federal 
Government, could that put members of the traveling public at 
risk if an individual was to qualify for one of the programs 
under the Trusted Traveler Program, but yet, there be 
information that was withheld that may have flagged that 
individual and prevented them from being cleared?
    Mr. Perez. Absolutely, Congressman, and it really takes us 
to, I think, another very troubling aspect, uniquely troubling 
aspect of New York's Green Light law, you know, aside from just 
the Trusted Traveler Programs, the inability to share that 
information for all sorts of other enforcement purposes and 
mission sets. Not just for CBP, and not just for the impact it 
has immediately on us, but the impact it has with our State and 
local partners and any of those who might otherwise be able to 
share that information with us over the course of 
investigations of all types, as I mentioned in my opening 
statement, that might then further inform not just DMV data 
that comes to us but other systems and holdings and 
investigations that could inform us as to why somebody might 
not be otherwise eligible or found to be eligible for a low-
risk travel program.
    Mr. Guest. One last question: Do you believe that New York 
State's Green Light law, does it negatively impact public 
safety?
    Mr. Perez. My professional opinion is absolutely, yes.
    Mr. Guest. No further questions, Madam Chairwoman. I yield 
back.
    Miss Rice. Thank you, Mr. Guest.
    The Chair now recognizes the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. I thank you, Chairwoman Rice, and I thank 
Ranking Member Higgins.
    Today's hearing follows Mr. Wolf's appearance before the 
committee in March where I asked him several questions about 
the decision to ban New York residents from participating in 
the Trusted Traveler Program. For example, I asked, and I 
quote, ``can you please explain how it makes the United States 
safer to allow residents of several foreign countries to enroll 
in the Global Entry program but to bar residents of New York 
State?''
    After some back and forth, Mr. Wolf said DHS did not have 
all of the information it required to vet an applicant from New 
York. Mr. Wolf also said, and I quote, ``what I had to take 
into account was making sure that the whole Global Entry system 
was not compromised.'' Then I asked, ``whether there was no 
other way of doing that other than banning all New Yorkers,'' 
and Mr. Wolf eventually said, and I quote, ``there isn't; there 
is not.''
    You can understand, then, Mr. Perez, how it was a surprise 
to me when, in early September, you filed a supplemental 
declaration with the District Court in which you said, and I 
quote, ``while CBP officers responsible for vetting TTP 
applications, including applications to the Global Entry 
program, do consider DMV record information in their 
adjudication of such applications based on information 
identified by CBP. On July 17, 2020, it is now clear that DMV 
data is not and was not at the time of my signature or my 
previous declaration available, either in whole or in part, to 
the TTP vetting officers for a number of jurisdictions, 
including New York.''
    Mr. Perez, how could CBP have been unaware prior to July 17 
of the fact that some jurisdictions were not providing some or 
all of the data that Mr. Wolf claimed were so essential to 
vetting applicants to the Trusted Traveler Programs that New 
York residents had to be excluded from the program because New 
York wasn't providing this data?
    Mr. Perez. So, thank you, Congresswoman. I will try to 
explain that again without, you know, getting too far into the 
technical weeds, as I will say, but I do want to also make one 
other statement as well, to that end, because Congressman 
Correa too. I want you all to know that, you know, CBP, we own 
the fact that we attested to and were under the impression that 
we were receiving all this data and that we were absolutely 
convinced that this data was coming back to us and then 
subsequently unearthed it in back of July. So we own that. That 
is something we are owning and we are fixing, and I just want 
to make sure that that gets on the record, that clearly.
    So, just to go back again and try to explain to you, 
Congresswoman, how that played out, the way it was explained to 
me by our OIT, our Office of Information Technology 
professionals, is as follows, is that, because of the nature of 
the queries and how they are typically run in batches, the 
volume associated with that and then the technical aspects of 
how those returns come back to the agency when those queries 
were made, there was nothing readily evident that we were not 
receiving the data that was being queried from any of those 
jurisdictions. It was not clear by virtue of the fact that, for 
most, save the U.S. territories who were not transmitting at 
all, we were receiving something. We were getting some sort of 
positive return on those queries whereas with New York, which 
is still true, we were getting a unique identifier informing 
the agency that the query and the information therein being 
asked for was restricted. That was unique then with respect to 
the queries, and it is my understanding that remains unique.
    Ms. Clarke. Mr. Perez----
    Mr. Perez. Nonetheless, without again getting into the 
myriad of the complexities of the IT systems, we are immersed 
in fixing those and working, again, with the States, with the 
territories to find a path forward so they can give us the 
completed information, but that is essentially how that played 
out to, my understanding.
    Ms. Clarke. Understood.
    Mr. Perez. I hope that explains it.
    Ms. Clarke. Mr. Perez--understood. Mr. Perez, wouldn't you 
then agree that there was a serious security breach beyond what 
you were doing with New York if, in fact, those data points 
were not being processed by all these other jurisdictions?
    Mr. Perez. I would not, Congresswoman. I would not 
characterize it like that at all. In fact, as I mentioned in 
my----
    Ms. Clarke. I just wanted to get your characterization 
because you sanctioned New York State while you are now saying 
that you would not characterize the fact that you didn't have 
the detailed information coming from all these other 
jurisdictions. Sounds very contradictive, but let me move on.
    Given that Mr. Wolf claimed that New York's DMV data was so 
essential to determining eligibility for enrollment in the 
Trusted Traveler Program that New Yorkers had to be thrown out 
of the program because New York wasn't providing that data, 
what security risk has CBP created in our Nation by enrolling 
applicants from U.S. jurisdictions that have provided limited 
or no DMV data to CBP?
    Mr. Perez. So, to that point, Congresswoman, not unlike I 
mentioned in my opening statement, that we would have otherwise 
and might have approved applications that would have provided 
for some sort of DMV-related offenses of the Trusted Traveler 
applicants who would have been found otherwise disqualified by 
virtue of some DMV-related misdemeanor issues. Other than that, 
there is no other subsequent consequence of what it is and how 
it is, you know, with respect to the risks of who it is that 
was let into that program. However, I must----
    Ms. Clarke. So, essentially, you are saying that there is 
none. Then why did Mr. Wolf claim that DMV data was needed to 
vet applicants in the first place? Was he ignorant of the 
facts, or was he misleading the committee?
    Mr. Perez. In order to be approved into a Trusted Traveler 
Program, Congresswoman, we expect that all those applicants 
meet the strictest thresholds with respect to what it is those 
qualifications are. That includes getting the information that 
we require from DMV, DMVs around the country and from the 
territories, in order to potentially identify disqualifying 
data. The inherent risk associated from a National security 
perspective by virtue of our ability to leverage criminal 
information by a wide array of other types of sources, 
including interagency collaboration and our own holdings, is 
separate and apart in how it is that we go ahead and vet and 
approve folks for a privilege, a privilege to be able to come 
across a border in a much more expedited fashion and be deemed 
low-risk. Nonetheless, that privilege, that privilege also does 
lean on the DMV information that we get from those DMV 
locations and their DMV offices from around the country. There 
may be, again, some violations, particularly for people who 
drive cars, that are DMV-related that would disqualify you from 
a Trusted Traveler Program.
    Ms. Clarke. On that note, Mr. Perez, yes, it is a 
privilege, and it is a privilege that U.S. citizens are 
afforded. But while New York residents were being prohibited 
from enrolling in the Trusted Travelers Program, did CBP 
continue enrolling foreign nationals in the program?
    Mr. Perez. We were, Congresswoman. Those are by way of 
bilateral--specific bilateral arrangements made with those 
foreign governments in order to have some of their nationals 
apply into the program. They are very strictly, you know, laid 
out as far as requirements and what need to be met. The vetting 
capabilities, because of, you know, dealing with different 
governments and different countries, they are all unique. So, 
again, those are specific agreements brought to and about by 
virtue of collaboration with those foreign governments and our 
counterparts. Then, subsequently, upon approval from both 
countries of the potential applicants, are those individuals 
subsequently approved into the program.
    I might add that one of the aspects that we do ask the 
foreign governments to bring to bear and to collate and analyze 
on their end is related, you know, DMV-like and or driver-
related offenses therein as well.
    Ms. Clarke. Madam Chair, I have gone over my time. I will 
yield back. If there is an additional round, I have some 
additional questions. Thank you.
    Miss Rice. Thank you, Ms. Clarke.
    Mr. Perez, if I could just say, you have said numerous 
times during your testimony here today that--you know, you said 
you didn't want to get into the technical weeds with Members of 
Congress, and yet, that is exactly why we are here. In fact, we 
tried to get transcribed interviews which are a great way to be 
able to kind-of dive into and get into the weeds not in this 
setting, and you were not made available for that purpose. So I 
am imploring you to please feel free to get into the weeds 
because it is only by getting to the weeds that we are going to 
truly understand what happened here, so thank you for that.
    The Chair now recognizes the gentlelady from Arizona, Mrs. 
Lesko.
    Mrs. Lesko. Thank you, Madam Chair. I do not have any 
questions. I will just make a brief comment. I thank the 
gentleman for coming to testify today. Thank you for your work. 
Thank you for your employees' work to keep our country safe.
    I have to say I continue to be mystified by my Democratic 
colleagues who somehow think it is awful that, if a State 
decides not to share information that is vital for National 
security with a Federal agency in order to get Trusted Traveler 
Program, which is just a courtesy--it is not, like, a right for 
everybody to have--that somehow they think that is bad. I think 
it is a good thing.
    So I applaud you for keeping our country safe, keeping our 
community safe, and standing up for what I believe the majority 
of Americans would agree with.
    With that, I yield back.
    Miss Rice. Thank you, Mrs. Lesko.
    We will now go into Round 2 of questions, and I will 
recognize myself for 5--hopefully 5 minutes.
    Mr. Perez, on June 22, the committee wrote to DHS seeking 
documents and information regarding the Trump administration's 
decision to permit Mr. Nigel Farage to travel to the United 
States from the United Kingdom despite travel restrictions in 
place to protect against the spread of the coronavirus 
pandemic. They allowed him to travel so that he could attend a 
campaign rally staged by President Trump in Tulsa, Oklahoma. 
The committee requested these documents by June 26. As with so 
many of our other document requests, this one too has gone 
unanswered.
    Do you know the date by which the Department will provide 
to the committee all of the documents it has requested 
regarding the process of approving Mr. Farage to visit the 
United States to attend President Trump's political rally?
    Mr. Perez. Thank you, Madam Chairwoman. I am not, but I 
will gladly take that back to inquire on your behalf.
    Miss Rice. Thank you.
    Mr. Perez. Uh-huh.
    Miss Rice. The decision by CBP to admit to the United 
States a foreign national who happens to be an ally of the 
President provides an interesting counterpoint to the 
administration's efforts to intentionally disadvantage U.S. 
citizens residing in New York. At the time Mr. Farage was 
admitted, an Executive Order was in effect suspending the entry 
into the United States of people who had been in the United 
Kingdom in the previous 14-day period. I will also note that, 
at the time, Mr. Farage was the leader of a political party but 
did not appear to have any official position.
    When committee staff requested further information from CBP 
regarding Mr. Farage's travel to the United States, CBP 
provided an email that stated that Mr. Farage was initially, 
``denied boarding while attempting to fly from the United 
Kingdom to the United States,'' but, ``after conducting a 
thorough review of the relevant facts and circumstances,'' DHS 
determined Mr. Farage's travel would be permissible under an 
exemption that allowed entry to, ``any alien whose entry would 
be in the National interest.'' Do you know what National 
interest was served by permitting Mr. Farage to enter the 
United States?
    Mr. Perez. I am not aware, Madam Chairwoman, of the exact 
exemptions that were applied when Mr. Farage was allowed to 
enter.
    Miss Rice. Well, I just told you.
    Mr. Perez. Right.
    Miss Rice. I quoted that his travel was determined to be 
permissible under an exemption that allowed entry to, ``any 
alien whose entry would be in the National interest.''
    Mr. Perez. So, pardon me, Madam Chairwoman. So, just for 
clarification, what I am not aware of are the particular 
details that would have led to him being eligible for that 
exemption. I was not aware of his travel.
    Miss Rice. Were you part of that decision making, 
determining that it was in the National interest to allow him 
into the United States?
    Mr. Perez. Not that I recall, Madam Chairwoman.
    Miss Rice. Do you know who made that decision?
    Mr. Perez. It would have been either--depending on the 
exemption, if I am not mistaken, it would have been either 
senior staff at the agency, meaning CBP or the Department, 
depending on the waiver. So I would have to go back and get 
that.
    Miss Rice. So, when you say senior staff at CBP, who 
specifically would you be referring to?
    Mr. Perez. It would have been in the Office of Field 
Operations which is, again, the entity within CBP that oversees 
entry into the ports of entry for travelers.
    Miss Rice. If it wasn't CBP, as you said it could have been 
CBP or people at the Department, meaning DHS, who would have 
made the decision at DHS?
    Mr. Perez. Well, it would have been hinged upon--my 
understanding is it hinged upon the authority that was being 
leveraged. Again, my presumption is it would have been more so 
ours, but there may be other exemptions, again, depending on 
which one was being utilized that fall under the purview of the 
Department's authority, but I would have to go back to double 
check that, Madam Chairwoman.
    Miss Rice. So, just to clarify, it seems that if you are 
allowing entry into this country based on it being in the 
National interest, that that is a decision, applying that 
exemption is a decision that would have to be made, according 
to you, at the very top of either CBP or DHS?
    Mr. Perez. Well, it would have been made at a senior level 
within our agency, not necessarily having to come to my level. 
That authority would have been and was subsequently delegated 
down, again, at an Executive level, nonetheless.
    Miss Rice. Did Mr. Wolf make this decision, as far as you 
know?
    Mr. Perez. I have--that is nothing that I am aware of at 
all. That would not be typical at all.
    Miss Rice. Are you aware of any communication with the 
Trump campaign vis-a-vis the decision making, finding this to 
be in the National interest?
    Mr. Perez. Not at all. None that I am aware of, Madam 
Chairwoman.
    Miss Rice. Thank you. I don't have any further questions.
    I will now recognize the gentleman from Louisiana, the 
Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    Deputy Commissioner, it occurs to me about our task force. 
The amendment of the New York law earlier this year which, 
perhaps, was a good-faith intention to fix this thing, I 
readily admit that, but I don't know of any interactions that 
were requested at the time that the legislature, the State 
legislature, was making those amendments to the law. I don't 
know if there was a great deal of interaction with CBP or ICE 
or DHS in general to arrive at a language of the law, as 
amended, that would fix the thing.
    Because to make it a felony to share DMV information with 
CBP or ICE outside of narrow exceptions, how does that impact 
our task force activities with other Federal law enforcement 
agencies like DEA, U.S. Marshals? Can you explain how the Green 
Light law, as amended, has impacted DHS's relationships with 
other Federal law enforcement agencies, specifically regarding 
joint terrorism task forces, et cetera?
    Mr. Perez. Thank you, Ranking Member, and that was as 
troubling as any development that came up subsequently with 
respect to the evolution of New York's Green Light law, the 
lack of the ability to share information. But then, you know, 
frankly, the cooling effect, if you will, from a practical 
perspective of now the consequence, potentially, for anybody to 
share that information by virtue of the class E felony.
    Mr. Higgins. Please explain to America because--I know 
because of my background, and maybe many in Washington here and 
Congress do as well, but clarify, a task force, as it meets and 
moves forward, it is a bunch of guys in a room, you know, at 
some undisclosed location talking about the developments in the 
case. So how could another Federal law enforcement agent not 
share data that he had access to with members of the task force 
that included ICE or Customs and Border Protection? This 
information is designed to be shared. That is what the task 
force does, to combine their investigative conclusions and what 
their suspicions are, et cetera, to arrive at the next step in 
that task force investigation. So how has it impacted the 
realities of your task force operations? I am very curious 
about that.
    Mr. Perez. So, thank you, Ranking Member. I guess I would 
describe it in this way. As you alluded to, those task force 
environments are dynamic environments, and in many respects, 
they are imperfect. They are imperfect insofar that it is by 
bringing the task force and all of those varying elements 
together that one enables the other in a very dynamic way. Over 
the decades that I have been in this profession, I've seen the 
evolution of the utility and being able to readily share on the 
front line what it is and all that it is that each and every 
agency, law enforcement professional, can bring by way of 
experience and actual information and data to bear when looking 
for solutions, answers, and leads, if you will, on the 
multitude of threats that we are pursuing in the interest of 
public safety.
    The impact of not being able to share readily, you know, 
again, at the very least, I would imagine that it is awkward 
for those who are involved in that, if not quite difficult and 
concerning because, again, now, in the case of New York, there 
is a very real consequence by way of a criminal conviction.
    Mr. Higgins. Yes. Orange is awkward.
    Mr. Perez. Thank you.
    Mr. Higgins. Orange is awkward. So let me ask in the 
interest of, perhaps, moving toward some potential resolution 
here. If the criminal impact of sharing information under the 
amended New York law was further amended based upon deeper 
communications between CBP, DHS, ICE, and the New York 
legislature, do you see--can you just answer us candidly, is 
there a way forward there if all parties were willing to 
address the amended law?
    Mr. Perez. I believe so, Ranking Member. In fact, we have--
amongst the outreach we have done, as I mentioned earlier, to 
all those other jurisdictions with respect to the DMV 
information, we have reached back to New York now as well and 
asked them, frankly, because back in April, part of their 
amendment was to turn some information back on in the interest 
of being able to vet for Trusted Traveler. So we have done that 
outreach at least to begin with that. They have yet to respond 
to us and turn that information on. But to your question, I 
believe so. There is always a path forward in order for people 
to understand more acutely what the perhaps unintended 
consequences of some of what it is they have done truly are.
    Again, as somebody who worked in New York City directing 
this agency for over 8 years, I will tell you that, 
particularly in that State, but throughout the country because 
that information is being leveraged and utilized throughout the 
country at times by virtue of the nature of the investigations 
that are being had and the linkages that are being made by 
officers and agents in this role all over the country, that has 
a very, very serious impact on our ability to, again, do all 
the other type of work that we do in order to keep our 
communities safe.
    Mr. Higgins. So thank you for your answers.
    Madam Chair, thank you for holding this hearing today, and 
I close my questions on that hopeful note.
    Miss Rice. Thank you, Mr. Higgins.
    The Chair now recognizes the gentleman from California, Mr. 
Correa.
    Mr. Correa. Thank you, Madam Chair.
    If I can, sir, I just had a couple of follow-up questions. 
I agree with Mr. Higgins; the more information, the better. I 
believe a lot of the bad guys that would do us harm are outside 
the country and inside the country too. We have got a lot of 
domestic terrorism, a rise in domestic terrorism, so I think 
the share of information is important. I hope we can get there 
respecting the objectives of the States in terms of their 
public safety objectives as well as yours as well.
    You touched on something interesting, which was the Foreign 
Traveler Program under the Trusted Traveler Program, and you 
mentioned something about the DMV-like data. So I think there 
is, like, 11 countries that we have the--kind-of a Foreign 
Trusted Traveler program. Is that correct? So is that sharing 
of the information with those 11 countries similar DMV data? 
Tell me. Is that--first of all, do we have treaties with those 
countries? Do we have sharing agreements, sharing data 
agreements with them? Help me understand a little bit more 
about how we work with these foreign nations to make sure we 
are all secure.
    Mr. Perez. Absolutely, Congressman. I don't have the list 
readily available. I am looking to see----
    Mr. Correa. Assume it is 11.
    Mr. Perez. Yes. It is a little more than a dozen different 
countries, and what it is, essentially, these are, again, very 
specific bilateral agreements made with those----
    Mr. Correa. They are bilateral per Nation?
    Mr. Perez. Right. With us per Nation, you know, directly 
with our counterparts to, in fact, not just meet but oftentimes 
exceed what it is that we typically would require with respect 
to Trusted Traveler, you know, Program vetting.
    Now, again, when we are talking to foreign countries, not 
all of them are created equal in what it is that they can 
provide, meaning the data and the information that they are 
able to procure, the data sharing arrangements that we have. 
So, again, it is a very select group that actually has gotten 
to that point where we have been able to make these 
arrangements.
    What I was referring to, because it is one of the questions 
that I particularly asked myself as we were expanding, and I 
was learning more about that type of expansion, was whether or 
not DMV-like and/or driver-associated histories and driver-
associated information by way of violations and misdemeanors, 
not unlike we weigh those details into consideration for 
vetting into our TTP programs here in the United States, if 
that was something we were asking the foreign countries to vet 
on their side as well as part of these bilateral arrangements, 
and it is. Now, they are the ones, again, ultimately who are 
verifying all those checks for us. We are doing our 
verifications from our end. It is, once both, countries agree 
to a certain applicant being eligible to join the program that 
that applicant is ultimately let in.
    Mr. Correa. When I was in the State legislature, we 
addressed the issues of criminal code across State lines and 
trying to figure out whether what you did in one State----
    Mr. Perez. Right.
    Mr. Correa [continuing]. Applied to the State of 
California, if it would meet the elements of a crime. In 
thinking about your job across international lines, DMV type of 
data, is that kind-of something that you do, try to figure out 
whether a person who is applying for a Trusted Traveler Program 
from another country, they would meet your qualifications in 
terms of similar behavior that you would find objective in the 
United States and in another country? Do you have specific 
elements or things that you look at?
    Mr. Perez. So the answer--the short answer is yes, 
Congressman. Your understanding, how you described it, is my 
understanding as well. But again, a lot of that criteria, a lot 
of all of that is done in the front end to make sure that both 
countries understand exactly what the expectation is on the 
applicants.
    Without getting into too much detail on the specific 
vetting, which we gladly will provide much more greater detail 
to the committee in a closed session because I would rather not 
get into specifics because of the----
    Mr. Correa. We would like--I would like that. I would like 
that, yes.
    Mr. Perez. We will gladly share that. But what I can give 
you just, you know, kind-of, you know, minor points, generally, 
you know, the different types of violations that are associated 
with, you know, a motor vehicle, you know, Division of Motor 
Vehicle or something therein that might not otherwise rise to 
being a criminal violation, you know, necessarily. Or, you 
know, there could be some sort of presentation that was less 
than accurate. It might have been, you know, some other type 
of, you know, driving and/or vehicular violation or license-
related violation that administratively raises some red flags 
with respect to potential eligibility into the programs. But, 
again, there is a longer, more detailed list there that, again, 
we will gladly share in a closed session.
    Mr. Correa. Madam Chair, if you will again indulge me with 
one further question.
    Interesting that we talk about DMV-like data, bilateral 
agreements with other countries, sharing of data. Again, from 
my State experience, we used to have the State attorney general 
in the State of California working with foreign Attorney 
Generals and sharing other data because this is an interesting 
area. Bad guys, bad people all over the world, and you want to 
make sure you have those folks under surveillance. So do you 
look at other data beyond just DMV data when it comes to the 
Trusted Traveler Program?
    Mr. Perez. Oh, very much so, Congressman. Very much so. Not 
only here, but with respect to those same bilateral 
arrangements. That is, frankly, a huge part of what it is we do 
when we vet for these Trusted Traveler Programs. We are leaning 
on a multitude of holdings, not just our own but in the 
interagency, to make sure that people, you know, actually are--
that we can confidently, frankly, afford the privilege for 
those who we deem low-risk. It is a terrific tool. We have over 
9\1/2\ million participants in the Trusted Traveler Programs 
now, and it is a terrifically important tool for us to manage 
risk. So, again, those thresholds, those expectations are high, 
and we do leverage a multitude of law enforcement information 
to make those decisions.
    Mr. Correa. Madam Chairwoman, I want to thank you very 
much, and I would just ask that we consider having a private 
discussion on some of the details of the Foreign and Trusted 
Traveler Program.
    With that, I yield.
    Miss Rice. I absolutely agree, Mr. Correa, absolutely, and 
thank you.
    The Chair now recognizes the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. I thank you again, Madam Chair. I thank Ranking 
Member Higgins.
    Mr. Perez, my time is short. I have a number of questions 
about the decision-making process. When did you first become 
aware that New York had enacted the Green Light law and that it 
would cut off CBP's access to the DMV database?
    Mr. Perez. So, Congresswoman, to the best of my 
recollection, when I personally became aware was in December of 
last year when it was reported to me that we were, as an 
agency, making these queries into New York's DMV database via 
the Nlets system which is the segue into those queries and 
receiving the negative returns that we were receiving. So I was 
made aware or I recall being made aware in December last year.
    Ms. Clarke. So how did you become aware? Can you be more 
explicit about that?
    Mr. Perez. To the best of my recollection, Congressman, it 
was shared with me by staff at the agency.
    Ms. Clarke. OK. According to a few documents produced by 
the Department to the committee, on December 30th of 2019, a 
memo was sent to the heads of DHS operational components 
stating that, and I quote, ``certain State legislatures have 
passed laws restricting their respective Department of 
Vehicles, DMV agencies, from sharing information with the 
Department.'' This memo went on to instruct, ``each operational 
component to conduct an assessment of the impact of these laws 
and respond by January 15, 2020.''
    Did you have any role in developing or reviewing CBP's 
response to DHS's query?
    Mr. Perez. I don't recall, Congressman. As you mention it, 
I do have a vague recollection of the ask, but I don't recall 
that I actually reviewed the response that went back to the 
Department. It would have been an Executive subordinate to me 
that would have been tasked with providing and compiling that 
information.
    Ms. Clarke. The limited production provided to the 
committee includes assessments returned by several DHS 
agencies, including a memo from the U.S. Secret Service. The 
Secret Service memo clearly acknowledges that there were 
limitations on that agency's access to DMV information.
    For example, the Secret Service memo states that, and I 
quote, ``all States participate in driver history sharing 
except Illinois, Puerto Rico, and the U.S. Virgin Islands.'' As 
such, it is clear that DHS knew very early this year, and 
perhaps even earlier, that there were at least some limitations 
on the sharing of data related to driver's license with at 
least one DHS operational component.
    Were you aware in January that there were limits on at 
least the Secret Service's access to some DMV data, and if not, 
when did you become aware?
    Mr. Perez. So I was not, Congresswoman, and I have only 
became aware, frankly, of some of these other agencies other 
than ICE, you know, and some of their limitations, you know 
as--over the last couple of months as I have, you know, been 
really, really having to, you know, familiarize myself with the 
totality of particularly the court proceeding and what has been 
going on with the court case up in New York.
    But a very important point here is that there is a clear 
distinction and can be a clear distinction with respect to what 
a State, you know, might be sharing with one agency versus what 
a State is, in fact, sharing with another. In other words, 
meaning that by virtue of the Secret Service, as you mentioned, 
not being able to get returns or get information or some types 
of information for certain States would not necessarily 
preclude and/or mean that CBP wasn't actually getting that 
information.
    Ms. Clarke. A document dated January 8, 2020, and labeled 
Memorandum for the Acting Deputy Secretary for Mark Morgan, 
Acting Commissioner, with the subject, and I quote, ``New York 
Green Light law, Implications and Recommendations,'' was 
produced to the committee. Again, much of it is redacted. Did 
you have any role in composing or reviewing this document or in 
making any of its recommendations regarding possible response 
to the Green Light law? If so, what was your role?
    Mr. Perez. So I do not recall the specifics, but if it was 
signed by the Commissioner, the Acting Commissioner of the 
agency, I would absolutely expect that I did review that memo 
and approved it to be put forth for his signature. Again, I 
just don't have recollection, and I don't have it with me. I 
don't have recollection of the particular aspects of what was 
included there, but I absolutely would have reviewed, more 
likely than not, that document.
    Ms. Clarke. The document states, and I quote, ``CBP first 
recommends engaging with the State of New York to resolve the 
restricted access prior to implementing any of the 
recommendations identified below.''
    To your knowledge, did that happen? If not, why not?
    Mr. Perez. I don't recall to what extent, and again, the 
timing, Congresswoman. I do understand that there was some 
engagement between the Department and the State of New York, 
but I don't recall that we in CBP had any subsequent 
discussions and/or back and forth with the folks in the State 
of New York.
    Ms. Clarke. Much of the memo is redacted. Will you tell us 
what all the different recommendations presented to the Acting 
Deputy Secretary were?
    Mr. Perez. I don't recall, again, the content of the memo, 
Congresswoman, and again, not familiar with the redactions 
made. Nonetheless, again, I gladly could take back your 
question and see what, if anything, more can be provided to you 
other than what has already been shared.
    Ms. Clarke. Were you ever involved in any discussion with 
personnel from CBP or DHS regarding how the Department would 
respond to New York's enactment of the Green Light law? If so, 
what discussions were you involved in, and when did they occur, 
who participated, and what was discussed?
    Mr. Perez. So I was personally involved with several 
discussions, and I was sharing with the DHS--my DHS 
counterparts and superiors as well as agency, you know, 
superiors and counterparts the facts as I knew them and how the 
Green Light law in New York affected and continues to affect 
CBP. Again, there was several conversations. I don't--I 
couldn't tell you specifically how many and when. I would have 
to go back and try to take a look at that. But, nonetheless, I 
assure you that I was involved in those conversations providing 
the facts as I knew them with respect to the New York Green 
Light law. Pardon me.
    Ms. Clarke. Was Mr. Wolf involved in any of these 
conversations?
    Mr. Perez. Pardon me?
    Ms. Clarke. Was Mr. Wolf involved in any of these 
conversations?
    Mr. Perez. To the best of my recollection, yes. I would 
have been at times briefing the then-Acting Secretary along 
with, again, other superiors of the Department and of the 
agency.
    Ms. Clarke. When did you first become aware that New York 
residents might be excluded from the Trusted Traveler Program, 
and how did you become aware?
    Mr. Perez. So, really, Congresswoman, I am going to 
respectfully say I'm not--you know, because that Department 
came from--or that decision came from the Department, I really 
don't feel it appropriate for me to get into the particular 
details of the deliberative process of how that decision came 
about. What I can share with you is that, ultimately, DHS made 
the decision.
    Ms. Clarke. No. My question was, when did you first become 
aware?
    Mr. Perez. To the best of my recollection, I became aware 
when the decision was made and was shared with the State of New 
York. That is to the best of my recollection.
    Ms. Clarke. How did you become aware?
    Mr. Perez. Again, to the best of my recollection, I was 
made aware of the decision when the decision was ultimately 
made and shared with the State of New York. I may have--it may 
have been shared with me somewhat previously to that, but I 
just don't recall.
    Ms. Clarke. Who informed you?
    Mr. Perez. Again, Madam Congresswoman, I am going to 
respectfully just say that I don't believe it appropriate for 
me to get into the particulars of the deliberative process of 
that decision making within the Department, and I just, 
candidly, don't have a recollection of who particularly would 
have informed me. What I can assure you is that I was--I was--
on behalf of this agency, providing facts that would have 
informed the ultimate decision makers in what it is that we 
would and should be considering with respect to that decision.
    Ms. Clarke. Respectfully, I am not asking about your 
deliberations. Someone had to have informed you that this 
decision to exclude New York was moving forward. All I am 
asking is, who informed you?
    Mr. Perez. I don't--I just don't recall, Congresswoman. 
That would have came--that would have come from the Department. 
A decision was made by the Department. Who specifically 
informed me, I just don't recall.
    Ms. Clarke. All right. Who made the decision that the 
response would be to exclude New York residents from the 
Trusted Traveler Program? You don't recall?
    Mr. Perez. That decision ultimately--I believe it is a 
matter of public record. I believe it was a letter that was 
received by the State of New York from the Acting Secretary, 
so, again, the decision ultimately came from the Department.
    Ms. Clarke. So it came from Mr. Wolf?
    Mr. Perez. I believe that that was the written 
correspondence. I believe it was his signature on the written 
correspondence. That is to the best of my recollection.
    Ms. Clarke. Were you told why this action would be taken, 
and if so, what were you told?
    Mr. Perez. Congresswoman, again, with all due respect, I 
think that is particularly--you know, it is directly about the 
deliberative process, and I am just letting you know that I 
was, you know, providing the advice and the facts as I knew it 
as best I could from CBP's perspective on what should inform 
the ultimate decision that was made. At the time, I, you know, 
gave those facts as best as I could and with everything that we 
had available to us in order to provide to the decision makers 
the most amount of information that they could possibly have 
prior to making that decision.
    Ms. Clarke. So what actions did you take or order within 
CBP to implement this decision?
    Mr. Perez. Once the decision was made, we immediately 
stopped accepting new applications for the Trusted Traveler 
Programs and renewals from residents from the State of New 
York.
    Ms. Clarke. Madam Chair, with all due respect, we are the 
oversight body of this agency, and I am highly insulted by the 
fact that we could have an officer from this agency say to me 
that he does not have to share with us the information of their 
deliberations. This is the height of insult to the American 
people, and I believe that this requires that we have a secured 
environment in which to have this conversation. If this can 
happen to New York State, it can happen to any State in the 
Union at the whim of any individual within any administration, 
and this is not what the American people have asked of us to 
do.
    I yield back to you, Madam Chair, but I have to say that, 
Mr. Perez, you have to be better than this. I yield back.
    Miss Rice. Thank you, Ms. Clarke. I agree that, given the 
limited answers that we have gotten here today, I think it 
would be a good idea to continue this conversation in a secure 
location.
    So, Mr. Perez, let me just say this: I thank you for 
showing up today because that is more than Mr. Acosta--who is 
the actual director of the TTP, the Trusted Traveler Program--
it is more than he did. It is more than Mark Morgan, who is the 
acting commissioner of CBP, did. It is more than Scott Glabe 
who is, get ready for this, the senior official performing the 
duties of under secretary for strategy policy and plans and 
assistant secretary for trade and economic security, Department 
of Homeland Security. That is a mouthful. So you have done more 
than those 3 have done. What I take exception to is that you 
have consistently downplayed your own title. You are the deputy 
commissioner of CBP. That is a job with enormous 
responsibility, enormous discretion, and enormous access to how 
decisions are made within the Department. You, in fact, are 
listed multiple times, seemingly in 4 different email 
discussions in the privilege log, in court documents, which 
indicate that you were fairly involved in the process of how 
all of these decisions were made. So I just want to be clear 
that we know that there are many documents that are likely 
responsive to the requests that this committee made in July. We 
know this because a report, dated September 4, 2020, and filed 
by the office of the acting U.S. attorney for the Southern 
District of New York with the district court indicates that 
Department of Justice officials reviewed, and I quote, ``more 
than 2,000 emails and documents'' regarding this issue. It is 
extremely likely that many of these materials would be 
responsive to the committee's 4 categories of requests.
    Let me also be clear that the existence of any type of 
litigation is not relevant--is not relevant--to the 
Department's obligation to provide to this committee the 
documents the committee has requested. You make it very 
difficult for us to engage in our Constitutional responsibility 
of having oversight over these agencies, and I hope that the 
Ranking Member will agree with me that this is not a political 
issue. This is an issue of allowing committees, Congressional 
committees, to do their required oversight.
    So I am asking you specifically, Mr. Perez. By what date, 
and I need a specific date, will you provide to the committee 
all the documents that we have requested, noting that these 
documents have already been identified and likely assembled, 
given the statement that was made by DOJ through the Southern 
District in its report to the district court?
    Mr. Perez. I will gladly take that back, Madam Chair, to 
find out when, exactly, you should all expect us to be able to 
provide that. Right now, I can't give you a specific date, but 
I will gladly take that back to give you--in an attempt to give 
you a specific date of when it is you should expect those 
responses to be provided.
    Miss Rice. I think that you are in a high enough position 
to be able to give me that answer now, but I will give you, 
let's say, I don't know, until the end of the week so you can 
tell us because these documents have been requested. We know 
that they have been reviewed. We know that they have been 
collated. We know that the Southern District has access to them 
as well. Again, they said that they reviewed more than 2,000 
emails and documents specifically on this issue that we are 
inquiring about.
    So, again, I want to thank you for showing up. I want to 
thank you for your patience here today and for giving answers 
that, although I think could have been fleshed out a little 
more, I respect the fact that you are agreeing to give us 
answers that will go deeper into the weeds, to use your 
language, in a secure setting, and we will take you up on that.
    I am going to defer to the Ranking Member for any closing 
comments he would like to make.
    Mr. Higgins. Just briefly.
    Deputy Commissioner Perez, are you deputy commissioner of 
Customs and Border Protection?
    Mr. Perez. I am, sir.
    Mr. Higgins. Are you the Acting Secretary of the Department 
of Homeland Security?
    Mr. Perez. No, I am not, sir.
    Mr. Higgins. Is it righteous that this committee would ask 
you questions regarding your own personal knowledge and actions 
of the performance of your duty as the deputy commissioner of 
Customs and Border Protection?
    Mr. Perez. Absolutely. Glad to respond to those.
    Mr. Higgins. Would you consider it righteous or within the 
parameters of appropriate questioning of chain of command for 
us to ask you as the deputy commissioner of Customs and Border 
Protection about internal discussions and deliberations of the 
Acting Secretary of the Department of Homeland Security?
    Mr. Perez. Again, I would respectfully say that I do not 
believe so. Nonetheless, having to provide a response and take 
the question, that is why I am here, and I gladly take the 
question, nonetheless.
    Mr. Higgins. Yes, sir.
    Mr. Perez. I don't believe----
    Mr. Higgins. I am an elected representative of the House of 
Representatives for the Third District of Louisiana, south 
Louisiana. We have seniority chain of command, so to speak, 
within our Conference, the Republican Conference. My colleagues 
have a similar chain of command within the Democratic Caucus. 
My own office has internal deliberations that are unknown to 
other offices, you could imagine. There is no way that I can 
answer questions regarding the deliberations and the internal 
communications of our leadership's--the means by which they 
arrive at conclusions. That would be Leader McCarthy or my 
colleague, Representative Steve Scalise. They issue their 
statements, and we are included because we are part of that 
Conference. The same thing happens across the aisle. But if 
someone asks me how Leader McCarthy--what the deliberations 
were and the specifics were, what the conversations were within 
his office, I wouldn't be able to answer it because I wasn't 
there. So I think that my colleague earlier indicated that you 
were somehow withholding data that you should divulge, but 
within every organization where a chain of command exists, 
there are parameters that we should stay within regarding 
responding to questions.
    So I thank you for appearing before us today. I think you 
have been candid and forthright in your answers.
    I thank my colleague and friend, Madam Chair, for holding 
this hearing today.
    Miss Rice. Thank you, Mr. Higgins.
    Mr. Higgins, my friend, I think that we all know how our 
individual leaders come to the conclusions that they come to. 
We just choose not to express them publicly, and that may be 
the case here as well.
    So, Mr. Perez, again, thank you so much for attending. With 
that, I want to thank you for your testimony and the Members 
for their questions.
    The Members of the subcommittee may have additional 
questions for the witness, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
